<html>
<title> - THE PRESIDENT'S DECISION ON MISSILE DEFENSE IN EUROPE</title>
<body><pre>[Senate Hearing 111-289]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-289
 
         THE PRESIDENT'S DECISION ON MISSILE DEFENSE IN EUROPE 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 24, 2009

                               __________

         Printed for the use of the Committee on Armed Services

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-138 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 












                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

ROBERT C. BYRD, West Virginia        JOHN McCAIN, Arizona
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SAXBY CHAMBLISS, Georgia
BILL NELSON, Florida                 LINDSEY GRAHAM, South Carolina
E. BENJAMIN NELSON, Nebraska         JOHN THUNE, South Dakota
EVAN BAYH, Indiana                   ROGER F. WICKER, Mississippi
JIM WEBB, Virginia                   GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           RICHARD BURR, North Carolina
MARK UDALL, Colorado                 DAVID VITTER, Louisiana
KAY R. HAGAN, North Carolina         SUSAN M. COLLINS, Maine
MARK BEGICH, Alaska
ROLAND W. BURRIS, Illinois
PAUL G. KIRK, JR., Massachusetts

                   Richard D. DeBobes, Staff Director

               Joseph W. Bowab, Republican Staff Director

                                  (ii)

  












                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

         The President's Decision on Missile Defense in Europe

                           september 24, 2009

                                                                   Page

Flournoy, Hon. Michele A., Under Secretary of Defense for Policy.    11
O'Reilly, LTG Patrick J., USA, Director, Missile Defense Agency..    17
Cartwright, Gen. James E., USMC, Vice Chairman, Joint Chiefs of 
  Staff..........................................................    22

                                 (iii)


         THE PRESIDENT'S DECISION ON MISSILE DEFENSE IN EUROPE

                              ----------                              


                      THURSDAY, SEPTEMBER 24, 2009

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:06 a.m. in 
room SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Lieberman, Reed, 
Webb, McCaskill, Udall, Hagan, Begich, Burris, McCain, Inhofe, 
Sessions, Chambliss, Thune, Wicker, Burr, Collins, and LeMieux.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Richard W. Fieldhouse, 
professional staff member; and Gerald J. Leeling, counsel.
    Minority staff members present: Joseph W. Bowab, Republican 
staff director; and Daniel A. Lerner, professional staff 
member.
    Staff assistants present: Jennifer R. Knowles, Christine G. 
Lang and Brian F. Sebold.
    Committee members' assistants present: James Tuite, 
assistant to Senator Byrd; Christopher Griffin, assistant to 
Senator Lieberman; Carolyn A. Chuhta, assistant to Senator 
Reed; Nick Ikeda, assistant to Senator Akaka; Christopher 
Caple, assistant to Senator Bill Nelson; Ann Premer, assistant 
to Senator Ben Nelson; Patrick Hayes, assistant to Senator 
Bayh; Gordon I. Peterson, assistant to Senator Webb; Tressa 
Steffen Guenov, assistant to Senator McCaskill; Roger Pena, 
assistant to Senator Hagan; Lindsay Young, assistant to Senator 
Begich; Nathan Davern, assistant to Senator Burris; Anthony J. 
Lazarski and Rob Soofer, assistants to Senator Inhofe, Lenwood 
Landrum and Sandra Luff, assistants to Senator Sessions; Clyde 
A. Taylor IV, assistant to Senator Chambliss; Jason Van Beek, 
assistant to Senator Thune; Kevin Kane, assistant to Senator 
Burr; Rob Epplin and Chip Kennett, assistants to Senator 
Collins; and Brian Walsh, assistant to Senator LeMieux.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. The committee meets today to receive 
testimony on the President's recent decision concerning missile 
defense in Europe. We're joined today by Michele Flournoy, the 
Under Secretary of Defense for Policy; General James 
Cartwright, the Vice Chairman of the Joint Chiefs of Staff; and 
Lieutenant General Patrick O'Reilly, the Director of the 
Missile Defense Agency (MDA). We're delighted to have you with 
us. We thank you for your service to the Nation.
    I see that Senator Lemieux is also with us today. We're 
delighted that you are here. We give you a very warm welcome to 
a committee which works on a very bipartisan basis. I think 
you'll enjoy your service on this committee and we very warmly 
welcome you.
    We also, if we have a quorum here, are going to take up 
military nominations when we have that quorum.
    Last Thursday, President Obama announced that he had 
accepted the unanimous recommendations of Defense Secretary 
Gates and Joint Chiefs of Staff to restructure the plan for 
missile defense in Europe. President Obama put it this way: 
``Our new missile defense architecture in Europe will provide 
stronger, smarter, and swifter defenses of American forces and 
American allies.''
    Secretary Gates called the new approach ``vastly more 
suitable and a far more effective defense'' than the previous 
plan to deploy 10 long-range interceptors in Poland and a radar 
in the Czech Republic.
    I believe this decision will enhance our national security 
and the security of our allies and partners in the region. It 
will deploy demonstrated technology sooner to defend against 
the number one existing threat in the Middle East, the threat 
of Iranian short- and medium-range missiles that can reach our 
forward-deployed forces and allies in Europe and Israel. 
Secretary Gates has said the existing Iranian threat ``was not 
addressed by the previous plan.''
    The new European missile defense architecture will evolve 
an increasing capability as Iran's missile capabilities evolve. 
It is flexible and adaptable to circumstances. It will counter 
future Iranian missile threats, including long-range missiles 
that could reach the United States if Iran develops them. So it 
will offer supplemental protection of the United States to 
augment the missile defense security we now have deployed in 
Alaska and California.
    Instead of abandoning missile defense in Europe, as some 
have suggested, the new approach expands and enhances our 
missile defense capabilities in Europe compared to the previous 
plan. Secretary Gates summarized the issue well by saying: ``We 
are strengthening, not scrapping, missile defense in Europe.''
    The new architecture will be deployed sooner than the 
previously proposed third site would have been. Secretary Gates 
has said that the new system will be deployed starting in 2011, 
whereas the previously planned system would not have been 
deployed until at least 2017, assuming then that it met all the 
conditions required in our law, such as ratification by the 
Czech Republic and Poland and demonstrating that the system 
would be operationally effective.
    As to the suggestion that the administration is abandoning 
some of our European allies, the administration's plan would 
involve more allies than the previous plan and would defend all 
of the North Atlantic Treaty Organization (NATO) Europe rather 
than only a portion of Europe. Poland and the Czech Republic 
are being offered the first opportunity to participate in the 
new architecture.
    The NATO view is positive. Last Thursday NATO Secretary 
General Rasmussen said: ``I welcome that the United States 
today has discussed at NATO how we can develop a missile 
defense which can include all allies and protect all allies. I 
welcome in fact that NATO will play a more prominent role in 
the U.S. plans for missile defense in Europe. That is a 
positive step.''
    Now, the reason that he reacts that way is that the new 
plan would defend all of our NATO allies and our forward-
deployed forces against that existing threat, rather than 
defending only a portion of NATO Europe that is not within the 
range of Iran's existing missiles, as was the case with the 
previous plan. This is a substantial improvement for NATO.
    Now, while some early statements from some Polish and Czech 
leaders were critical, later statements were supportive. For 
instance, last Friday Polish Foreign Minister Sikorski said: 
``Poland will be an element of a new missile defense security. 
There is no question of the United States abandoning our 
region. If the scenario outlined yesterday by the U.S. 
President, State Department officials, and the Secretary of 
State is implemented, it will be a significant reinforcement of 
Poland's defense potential,'' he said. On Polish TV he said: 
``We will have what we wanted.'' This is the Polish Foreign 
Minister Sikorski. ``We will have what we wanted. The presence 
of American troops and Patriot missiles is guaranteed.''
    Czech President Vaclav Klaus earlier this week says he 
``fully accepts the decision.''
    To those who say the new approach stems from Russian 
pressure, Secretary Gates wrote in The New York Times: 
``Russia's attitude and possible reaction played no part in my 
recommendation to the President on this issue.'' Secretary 
Gates added that ``if Russia's leaders embrace this plan, that 
will be an unexpected and welcome change of policy on their 
part.''
    Now, it would be an additional benefit if the new plan 
opens the door to cooperation with Russia on missile defense. 
If Russia were to cooperate with the United States and NATO, it 
would send a powerful signal to Iran. It could also, if Russia 
were to share the data from its Armavir radar, improve the 
capability of our defenses against Iran.
    NATO has repeatedly supported missile defense cooperation 
between the United States and Russia. In April I traveled to 
Warsaw, Prague, and Moscow with Senator Bill Nelson and Senator 
Collins. We had frank discussions with government officials in 
each country. We came back I think with the view that there 
appeared to be a possibility for a new approach to missile 
defense that might be acceptable to all and which might show 
Iran that its pursuit of missiles and nuclear weapons will 
bring countries, including Russia, together in opposition. This 
plan creates the possibility for missile defense to be a 
uniting issue, rather than continuing as a dividing issue.
    I would add that it was clear from that trip that the 
Polish Government was focused, as Foreign Minister Sikorski 
said, on the deployment of a U.S. Patriot battery and in U.S. 
personnel in Poland, rather than on deployment of the 
previously proposed long-range interceptors in Poland. It 
appears that now both nations are moving steadily toward such a 
deployment and I hope Secretary Flournoy will discuss the 
status of the Patriot issue.
    The new plan is also consistent with the direction that was 
provided by Congress over each of the last 3 years under both 
Democratic and Republican leadership. Congress in our 
legislation told the Defense Department to buy more Standard 
Missile-3 (SM-3) and Terminal High Altitude Area Defense 
(THAAD) interceptors to defend against the existing short- and 
medium-range missile threat. Congress established a policy to 
develop, test, and deploy effective missile defenses to defend 
our forward-based forces, our allies, and our Homeland against 
the threat of Iran's existing and possible future ballistic 
missiles, and Congress directed that the Defense Department 
place a priority on developing, testing, and fielding near-term 
effective missile defense securities, including the Aegis 
ballistic missile defense (BMD) with its SM-3 interceptor, 
THAAD and Patriot (PAC-3).
    In summary, I believe this new approach is a three-fer. It 
addresses more directly and effectively Iran's missile threat, 
it maintains and expands our security commitment to Europe, 
including Poland and the Czech Republic, it opens the door to 
working cooperatively with Russia on a missile defense security 
system that could not only provide greater protection to 
Europe, but also make a strong statement to Iran that Europe, 
including Russia, will take unified action against Iran's 
threat.
    The balance of my statement will be placed in the record, 
and before calling on our witnesses let me recognize Senator 
McCain.
    [The prepared statement of Senator Levin follows:]
                Prepared Statement by Senator Carl Levin
    The committee meets today to receive testimony on the President's 
recent decision concerning missile defense in Europe.
    We are joined today by the Honorable Michele Flournoy, the Under 
Secretary of Defense for Policy; General James Cartwright, the Vice 
Chairman of the Joint Chiefs of Staff; and Lieutenant General Patrick 
O'Reilly, the Director of the Missile Defense Agency. We are glad to 
have you with us, and we thank you for your service to the Nation.
    Last Thursday, President Obama announced that he had accepted the 
unanimous recommendations of Defense Secretary Gates and the Joint 
Chiefs of Staff to restructure the plan for missile defense in Europe.
    President Obama put it this way: ``our new missile defense 
architecture in Europe will provide stronger, smarter, and swifter 
defenses of American forces and American allies.'' Secretary Gates 
called the new approach ``vastly more suitable'' and ``a far more 
effective defense'' than the previous plan to deploy 10 long-range 
interceptors in Poland and a radar in the Czech Republic.
    I believe this decision will enhance our national security and the 
security of our allies and partners in the region. It will deploy 
demonstrated technology sooner to defend against the number 1 existing 
threat in the Middle East, the threat ofIranian short- and medium-range 
missiles. They can reach our forward-deployed forces and allies in 
Europe and Israel. Secretary Gates has said that the existing Iranian 
threat ``was not addressed by the previous plan.''
    The new European missile defense architecture will evolve and 
increase in capability as Iran's missile capabilities evolve. It is 
flexible and adaptable to circumstances. It will counter future Iranian 
missile threats, including long-range missiles that could reach the 
United States, if Iran develops them. So it will offer supplemental 
protection of the United States, to augment the missile defense system 
we now have deployed in Alaska and California.
    Instead of abandoning missile defense in Europe, as some have 
suggested, the new approach dramatically expands and enhances our 
missile defense capabilities in Europe compared to the previous plan. 
Secretary Gates summarized the issue well by saying that ``we are 
strengthening--not scrapping--missile defense in Europe.''
    The new architecture will be deployed sooner than the previously 
proposed ``third site'' would have been. As Secretary Gates has said, 
the new system will be deployed starting in 2011, whereas the 
previously planned system would not have been deployed until at least 
2017-assuming that it met all the conditions required in our law, such 
as ratification by the Czech Republic and Poland, and demonstrating 
that the system would be operationally effective.
    As to the suggestion that the administration is abandoning some of 
our European allies, the administration's plan would involve more 
allies than the previous plan, and would defend all of NATO Europe, 
rather than only a portion of Europe. We are offering both Poland and 
the Czech Republic the first opportunity to participate in the new 
architecture.
    The NATO view is also positive. Last Thursday, NATO Secretary 
General Rasmussen said: ``I welcome that the United States today has 
discussed at NATO how we can develop missile defense which can include 
all allies and protect all allies. . . . I welcome in fact that NATO 
will play a more prominent role in the U.S. plans for missile defense 
in Europe. That is a positive step.''
    The new plan would defend all of our NATO allies and our forward-
deployed forces against that existing threat, rather than defending 
only the portion of NATO Europe that is not within range of Iran's 
existing missiles--as was the case with the previous plan. This is a 
substantial improvement for NATO.
    While some early statements from some Polish and Czech leaders were 
critical, later statements were supportive.
    For instance, last Friday, Polish Foreign Minister Sikorski said: 
``Poland will be an element of a new [Missile Defense] system.'' . . . 
``There is no question of the United States abandoning our region. If 
the scenario outlined yesterday by the U.S. President, State Department 
officials, and Secretary of State is implemented, it will be a 
significant reinforcement of Poland's defense potential.'' On Polish 
TV, he said: ``We will have what we wanted: the presence of American 
troops and Patriot missiles is guaranteed.''
    Czech President Vaclav Klaus earlier this week said: he ``fully 
accepts'' the decision.
    As to those who say the new approach stems from Russian pressure, 
Secretary Gates wrote in the New York Times, ``Russia's attitude and 
possible reaction played no part in my recommendation to the President 
on this issue.'' He added that ``if Russia's leaders embrace this plan, 
then that will be an unexpected--and welcome--change of policy on their 
part.''
    It will be an additional benefit if the new plan opens the door to 
cooperation with Russia on missile defense. If Russia were to cooperate 
with the United States and NATO, it would send a powerful signal to 
Iran. It could also, if Russia were to share the data from its Armavir 
radar, improve the capability of our defenses against Iran. NATOhas 
repeatedly supported missile defense cooperation between the United 
States and Russia.
    In April, I traveled to Warsaw, Prague, and Moscow with Senator 
Bill Nelson and Senator Collins. We had frank and constructive 
discussions with government officials in each country. We came back 
with the view that there appeared to be a possibility for a new 
approach to missile defense which could be acceptable to all sides, and 
which might show Iran that its pursuit of missiles and nuclear weapons 
will bring countries--including Russia--together in opposition. This 
plan creates the possibility for missile defense to be a uniting issue, 
rather than continuing as a dividing issue.
    I would add that it was clear from that trip that the Polish 
Government was focused, as Foreign Minister Sikorski said, on the 
deployment of a U.S. Patriot battery and U.S. personnel in Poland, 
rather than on deployment of the previously proposed long-range 
interceptors in Poland. It appears that both nations are moving 
steadily toward such a deployment, and I hope Secretary Flournoy will 
discuss the status of the Patriot issue.
    It was also clear that the Czech Government was not moving toward 
ratifying the missile defense agreements before its national elections, 
now scheduled for next year, and appeared likely not to do so after 
those elections, either.
    The new plan is consistent with the direction provided by Congress 
over each of the last 3 years, under both Democratic and Republican 
leadership:

    <bullet>  Congress told the Defense Department to buy more Standard 
Missile-3 and Terminal High Altitude Area Defense (THAAD) interceptors 
to defend against the existing short- and medium-range missile threat;
    <bullet>  Congress established a policy to develop, test, and 
deploy effective missile defenses to defend our forward-based forces, 
our allies, and our Homeland against the threat of Iran's existing and 
possible future ballistic missiles; and
    <bullet>  Congress directed the Defense Department to place a 
priority on developing, testing, and fielding near-term effective 
missile defense systems, including Aegis BMD with its Standard Missile-
3 interceptor, THAAD, and Patriot PAC-3.

    In its report to accompany the National Defense Authorization Act 
last year, this committee told the Defense Department that its highest 
missile defense priority should be to buy significantly more Standard 
Missile-3 and THAAD interceptors in order to defend against the 
existing threat of short- and medium-range missiles from nations such 
as Iran and North Korea. That is the essence of the new plan.
    Two years ago, in section 229 of the National Defense Authorization 
Act for Fiscal Year 2008 (Public Law 110-181), Congress established the 
policy of the United States to develop, test, and deploy, as soon as 
technologically feasible, in conjunction with allies and other friendly 
nations whenever possible, an effective defense against the ballistic 
missile threat from Iran, to protect the forward-based forces of the 
United States and allies in Europe and the surrounding region, as well 
as to protect against possible future long-range Iranian missiles that 
could eventually threaten the United States. That, in a nutshell, is 
what the President and Secretary Gates announced last Thursday.
    Three years ago, this committee initiated, and Congress adopted, 
legislation making it the policy of the United States to place a 
priority in its missile defense programs on developing, testing, 
deploying, and improving near-term, effective missile defense systems, 
including the Aegis Ballistic Missile Defense system with its Standard 
Missile-3 interceptor, the THAAD system, and the Patriot PAC-3 system, 
and their sensors. Those are, of course, the three systems that form 
the core of the administration's new missile defense plan for Europe.
    In summary, this new approach is a ``three-fer:'' It addresses more 
directly and effectively Iran's missile threat. It maintains and 
expands our security commitment to Europe, including Poland and the 
Czech Republic. It opens the door to working cooperatively with Russia 
on a missile defense system that could not only provide greater 
protection to Europe, but also make a strong statement to Iran that 
Europe, including Russia, will take unified action against Iran's 
threat.
    Secretary Flournoy, General Cartwright, and General O'Reilly, thank 
you for joining us today.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman. I'd also like to 
acknowledge Senator George LeMieux of Florida and welcome him 
to the committee. Despite the fact that he is an attorney, I 
look forward to working with him on the many issues we face 
today. This committee does work in a bipartisan fashion, but I 
also might say a very spirited fashion from time to time. So 
welcome, George.
    I welcome the witnesses today. Since the end of the Cold 
War, we've prided ourselves on the strong and enduring 
relationships we've forged with our European allies, 
particularly in Eastern Europe. At a time when Eastern European 
nations are increasingly wary of renewed Russian aggression in 
the region--Georgia, attempts to intimidate Ukraine, other 
actions that have been taken--the administration is adopting a 
new European missile defense strategy that has clearly bruised 
some of our staunchest allies in Europe while encouraging hard-
liners in my view.
    The decision by the administration to back away from its 
missile defense commitment to the Czech Republic and Poland can 
only demonstrate to the rest of Europe that the United States 
is not prepared to stand behind its friends, that the United 
States views resetting its relations with Russia more important 
than commitments made to close friends and allies, and that the 
administration is willing to let Russia have veto power over 
the disposition of our missile defense architecture.
    Missile defense in Europe is not and should not be viewed 
in Moscow as some new form of post-Cold War aggression. It's 
rather a reasonable and prudent response to the very 
belligerent threats the Iranian regime continues to pose to the 
United States and the world.
    One of the troubling rationales for this new approach is 
based on the assumption that the long-range Iranian ballistic 
missile threat is not materializing as quickly as previously 
assessed and that the real threat is in the short- and medium-
range missiles. I agree the short- and medium-range missile 
threats are a significant and growing threat, but I question 
the notion that we don't have to be as vigilant in developing 
our defenses against long-range Iranian ballistic missiles. 
Eric Edelman, Under Secretary of Defense for Policy under 
Secretary Gates during the Bush administration, recently said 
that intelligence reports on the Iranian threat as recently as 
January of this year were more troubling than what is being 
portrayed by the current administration. He said: ``Maybe 
something really dramatic changed between January 16 and now in 
what the Iranians are doing with their missile securities, but 
I don't think so.''
    We all know the threat's real of Iranian ballistic 
missiles, real and growing. I look forward to hearing from our 
witnesses on both exactly what has changed threat-wise and why 
the new and old strategies are mutually exclusive, why we can 
wait until 2020, at least 3 to 5 years later than originally 
planned, to field a long-range security capable of defending 
both the United States and Europe.
    Interesting about this whole decisionmaking scenario, which 
in my view was incredibly amateurish and ham-fisted: Months of 
negotiations were dedicated towards reaching an agreement with 
the Poles and Czechs in 2008, but a late night phone call was 
all it took to tell our friends to take a hike. According to 
news reports, the Polish Prime Minister was called at midnight, 
only hours before the administration formally announced its new 
strategy. I suppose that Prime Minister Tusk shouldn't be all 
too upset because he, unlike Members of Congress, didn't have 
to wait to read about it in the morning papers.
    I must say the timing was exquisite, while the Poles were 
commemorating the 75th anniversary of the Russian invasion of 
Poland--exquisite timing. Poland headlines read: ``Betrayal. 
The U.S. sold us to Russia and stabbed us in the back.'' In the 
Czech Republic: ``No radar. Russia won.''
    I urge the administration to take every step necessary 
above and beyond proceeding forward with the planned European 
missile defense strategy to not downplay the long-range Iranian 
threat and reassure our allies.
    Also, I think it's worth noting the Czech Republic 
currently have NATO forces deployed, as well as 100 personnel 
deployed in Kandahar. The Polish currently have 2,000 troops in 
Afghanistan. I'll be very interested in the future to see how 
firmly the Poles and the Czechs stand behind those commitments.
    There is very little doubt that in most of the world that 
this is viewed as an attempt to gain Russian concessions on the 
Iranian nuclear issue. That's the interpretation. It was 
Machiavelli who said it's not what you do, it's what you appear 
to do. I am sure that the witnesses today will make a strong 
technical case for abandonment of the long-range missiles to 
short- and medium-range missile defenses. I have to tell you 
that there's more to this, far more to this, than a change in 
policy. This is a signal to our East European friends, who are 
very nervous about aggressive Russian behavior in the region, 
and they have a rich history which to base their concerns on 
that we have sent the wrong message at the wrong time.
    As far as this decision having significant beneficial 
effect on Russian attitudes towards Iranian nuclear buildup, 
we'll see. History shows us that unilateral concessions very 
rarely gain anything except increased demands from our 
adversaries.
    I thank you, Mr. Chairman.
    [The prepared statement of Senator McCain follows:]
               Prepared Statement by Senator John McCain
    Thank you Mr. Chairman. I'd like to take a moment to acknowledge 
Senator George S. LeMieux of Florida and welcome him to the committee. 
Despite the fact that he is an attorney, I look forward to working with 
him on the many issues that we face today, and I thank him and his 
family for their willingness to serve.
    Since the end of the Cold War we have prided ourselves on the 
strong and enduring relationships we have forged with our Eastern 
European allies. At a time when Eastern European nations are 
increasingly wary of renewed Russian aggression in the region, the 
administration in adopting a new European missile defense strategy has 
clearly bruised some of our staunchest U.S. allies in Europe while 
encouraging Russian hardliners.
    The decision by the administration to back away from its missile 
defense commitment to the Czech Republic and Poland can only 
demonstrate to the rest of Europe that the United States is not 
prepared to stand behind its friends; that the United States views re-
setting its relations with Russia more important than commitments made 
to close friends and allies; and that the administration is willing to 
let Russia have veto power over the disposition of our missile defense 
architecture.
    Missile defense in Europe is not, and should not, be viewed in 
Moscow as some new form of post-Cold War aggression. It is, rather, a 
reasonable and prudent response to the very real belligerent threats 
the Iranian regime continues to pose to the United States, Europe, and 
the world.
    One of the troubling rationales for this new approach is based on 
the assumption that the long-range Iranian ballistic missile threat is 
not materializing as quickly as previously assessed and that the real 
threat is in short- and medium-range missiles. I agree that short- and 
medium-range ballistic missiles are a significant and growing threat 
but question the notion that we don't have to be as vigilant in 
developing our defenses against long-range Iranian ballistic missiles. 
Eric Edelman, the Under Secretary of Defense for Policy under Secretary 
Gates during the Bush administration, recently said that intelligence 
reports on the Iranian threat as recent as January of this year were 
more troubling than what is being portrayed by the current 
administration. Mr. Edelman maintains that ``maybe something really 
dramatic changed between January 16 and now in terms of what the 
Iranians are doing with their missile systems, but I don't think so.''
    We all know that the Iranian ballistic missile threat is real and 
growing and I look forward to hearing from our witnesses on both 
exactly what has changed threat-wise and why the new and old strategies 
are mutually exclusive. Why we can wait until 2020, at least 3 to 5 
years later than originally planned to field a long-range system 
capable of defending both the United States and Europe?
    Months of negotiations were dedicated towards reaching agreement 
with the Poles and Czechs in 2008, but a late night phone call was all 
it took to tell our friends to ``take a hike.'' According to news 
reports, the Polish Prime Minister, was called at midnight, only hours 
before the administration formally announced its new strategy. But, I 
supposed Prime Minister Tusk shouldn't be all too upset. He, unlike 
Members of Congress, didn't have to read about it first in the morning 
newspaper.
    In Poland, headlines read ``Betrayal! The U.S. sold us to Russia 
and stabbed us in the back'' and in the Czech Republic, ``No Radar. 
Russia won.'' I urge the administration to take every step necessary 
above and beyond proceeding forward with the planned European missile 
defense strategy to not downplay the long-range Iranian threat and 
reassure our allies and the rest of the world that the U.S. stands 
behind its commitments. Given the global threats we face today, we 
cannot afford to lose friends or real estate in the region.
    Mr. Chairman, thank you.

    Chairman Levin. Thank you, Senator McCain.
    There is a quorum now present so I would ask the committee 
to consider a list of 2,559 pending military officer 
nominations. Included in this list is Admiral Mullen for 
reappointment to be Chairman of the Joint Chiefs.
    Of these nominations, 25 do not meet the committee's 7-day 
requirement by only 1 day. No objection has been raised to 
these nominations. I recommend the committee waive the 7-day 
rule in order to permit the confirmation of the nominations of 
these 25 officers.
    Senator McCain. So moved.
    Chairman Levin. Is there a second?
    Senator Lieberman. Second
    Chairman Levin. All those in favor say aye.
    [A chorus of ayes.]
    Opposed, nay.
    [No response.]
    The ayes have it.
    [The list of nominations considered and approved by the 
committee follows:]
 Military Nominations Pending With the Senate Armed Services Committee 
 which are Proposed for the Committee's Consideration on September 24, 
                                 2009.
    1. In the Navy, there are two appointments to the grade of rear 
admiral (list begins with Michael H. Mittelman) (Reference No. 77).
    2. ADM Michael G. Mullen, USN, to be admiral and Chairman of the 
Joint Chiefs of Staff (Reference No. 489).
    3. BG Joseph B. DiBartolomeo, ARNG, to be major general (Reference 
No. 725).
    4. In the Air Force, there are 40 appointments to the grade of 
lieutenant colonel (list begins with Lance L. Annicelli) (Reference No. 
771).
    5. In the Army there is one appointment to the grade of major 
(Robert J. Schultz) (Reference No. 825).
    6. In the Army, there is one appointment to the grade of major 
(Andrea J. Fuller) (Reference No. 826).
    7. In the Army, there are two appointments to the grade of colonel 
and below (list begins with Peter H. Guevara) (Reference No. 827).
    8. In the Army, there are eight appointments to the grade of 
lieutenant colonel and below (list begins with James Bane) (Reference 
No. 828).
    9. Gen. James N. Mattis, USMC, to be general and Commander, U.S. 
Joint Forces Command (Reference No. 830).
    10. In the Army Reserve, there are 46 appointments to be colonel 
(list begins with John A. Blankenbaker) (Reference No. 853).
    11. In the Army Reserve, there are 307 appointments to be colonel 
(list begins with William L. Abernathy, Jr.) (Reference No. 854).
    12. In the Army Reserve, there are 237 appointments to be colonel 
(list begins with Gregory T. Adams) (Reference No. 855).
    13. In the Navy, there is one appointment to be lieutenant 
commander (Erik J. Modlo) (Reference No. 856).
    14. In the Navy, there are two appointments to be lieutenant 
commander (list begins with Josh A. Cassada) (Reference No. 857).
    15. In the Navy, there are 72 appointments to be lieutenant 
commander (list begins with Matthew J. Acanfora) (Reference No. 858).
    16. In the Navy, there are 49 appointments to be lieutenant 
commander (list begins with Ron J. Arellano) (Reference No. 859).
    17. In the Navy, there are 41 appointments to be lieutenant 
commander (list begins with Benjamin I. Abney) (Reference No. 860).
    18. In the Navy, there are 38 appointments to be lieutenant 
commander (list begins with Christopher D. Addington) (Reference No. 
861).
    19. In the Navy, there are 22 appointments to be lieutenant 
commander (list begins with Kelly W. Bowman, Jr.) (Reference No. 862).
    20. In the Navy, there are 32 appointments to be lieutenant 
commander (list begins with Hasan Abdulmutakallim) (Reference No. 863).
    21. In the Navy, there are 12 appointments to be lieutenant 
commander (list begins with Denise G. Barham) (Reference No. 864).
    22. In the Navy, there are 17 appointments to be lieutenant 
commander (list begins with Guillermo R. Amezaga) (Reference No. 865).
    23. In the Navy, there are 157 appointments to be lieutenant 
commander (list begins with Christopher W. Anderson) (Reference No. 
866).
    24. In the Navy, there are 907 appointments to be lieutenant 
commander (list begins with Matthew L. Abbot) (Reference No. 867).
    25. In the Army Reserve, there is one appointment to the grade of 
colonel (Cameron D. Wright) (Reference No. 893).
    26. In the Army, there is one appointment to the grade of major 
(Andre L. Brown) (Reference No. 894).
    27. In the Army Reserve, there are six appointments to the grade of 
colonel (list begins with Kathleen E. Coffey) (Reference No. 895).
    28. In the Navy, there are six appointments to the grade of 
commander and below (list begins with Paul C. Kerr) (Reference No. 
896).
    29. In the Navy, there are four appointments to the grade of 
commander (list begins with Scott A. Anderson) (Reference No. 897).
    30. In the Navy, there are 38 appointments to the grade of 
commander (list begins with Keith R. Barkey) (Reference No. 898).
    31. In the Navy, there are 30 appointments to the grade of 
commander (list begins with Paul S. Anderson) (Reference No. 899).
    32. In the Navy, there are 51 appointments to the grade of 
commander (list begins with Robin M. Allen) (Reference No. 900).
    33. In the Navy, there are 50 appointments to the grade of 
commander (list begins with James D. Abbott) (Reference No. 901).
    34. In the Navy, there are 28 appointments to the grade of 
commander (list begins with Jason T. Baltimore) (Reference No. 902).
    35. In the Navy, there are 61 appointments to the grade of 
commander (list begins with Joel R. Bealer) (Reference No. 903).
    36. In the Navy, there are 21 appointments to the grade of 
commander (list begins with Martin J. Anerino) (Reference No. 904).
    37. In the Navy, there are 144 appointments to the grade of 
commander (list begins with Roger S. Akins) (Reference No. 905).
    38. MG Ralph J. Jodice II, USAF, to be lieutenant general and 
Commander, Allied Air Component Command Headquarters, Izmir and 
Commander, 16th Air Expeditionary Task Force, U.S. Air Forces in Europe 
(Reference No. 912).
    39. MG William J. Rew, USAF, to be lieutenant general and Vice 
Commander, Air Combat Command (Reference No. 913).
    40. MG Christopher D. Miller, USAF, to be lieutenant general and 
Deputy Chief of Staff, Strategic Plans and Programs, Headquarters, U.S. 
Air Force (Reference No. 914).
    41. LTG Benjamin C. Freakley, USA, to be lieutenant general and 
Commanding General, U.S. Army Accessions Command (Reference No. 915).
    42. LTG John D. Gardner, USA, to be lieutenant general and Deputy 
Commander, US European Command (Reference No. 916).
    43. LTG Frank G. Helmick, USA, to be lieutenant general and 
Commanding General, XVIII Airborne Corps and Fort Bragg (Reference No. 
917).
    44. MG Mark P. Hertling, USA, to be lieutenant general and Deputy 
Commanding General, Initial Military Training, U.S. Army Training and 
Doctrine Command (Reference No. 918).
    45. In the Army, there are 38 appointments to the grade of 
brigadier general (list begins with Robin B. Akin) (Reference No. 919).
    46. MG Frank A. Panter, Jr., USMC, to be lieutenant general and 
Deputy Commandant, Installations and Logistics (Reference No. 920).
    47. MG Thomas D. Waldhauser, USMC, to be lieutenant general and 
Deputy Commandant for Plans, Policies, and Operations, Headquarters, 
U.S. Marine Corps (Reference No. 921).
    48. Capt. Charles A. Rainey, USNR, to be rear admiral (lower half) 
(Reference No. 922).
    49. Capt. Jonathan W. White, USN, to be rear admiral (lower half) 
(Reference No. 923).
    50. RADM(lh) David W. Titley, USN, to be rear admiral (lower half) 
(Reference No. 924).
    51. Col. David J. Conboy, USAR, to be brigadier general (Reference 
No. 938).
    52. Col. James V. Young, Jr., USAR, to be brigadier general 
(Reference No. 939).
    53. Col. Ivan N. Black, USAR, to be brigadier general (Reference 
No. 940).
    54. MG John F. Kelly, USMC, to be lieutenant general and Commander, 
Marine Forces Reserve and Commander, Marine Forces North (Reference No. 
941).
    55. RDAM(lh) Gregory J. Smith, USN, to be rear admiral (Reference 
No. 942).
    56. In the Air Force, there is one appointment to the grade of 
lieutenant colonel (Thomas M. Anderson) (Reference No. 943).
    57. In the Air Force, there is one appointment to the grade of 
major (Ricky B. Reaves) (Reference No. 944).
    58. In the Air Force, there is one appointment to the grade of 
major (Jose R. Pereztorres) (Reference No. 945).
    59. In the Air Force, there are seven appointments to the grade of 
lieutenant colonel and below (list begins with Loyd A. Graham) 
(Reference No. 946).
    60. In the Army, there is one appointment to the grade of 
lieutenant colonel (Sonnie D. Deyampert) (Reference No. 947).
    61. In the Army, there is one appointment to the grade of colonel 
(Douglas Lougee) (Reference No. 948).
    62. In the Army, there is one appointment to the grade of major 
(James Peak) (Reference No. 949).
    63. In the Army, there are 12 appointments to the grade of 
lieutenant colonel and below (list begins with Joyvetta Lewis) 
(Reference No. 950).
    64. In the Navy, there are four appointments to the grade of 
lieutenant commander (list begins with Brian J. Ellis) (Reference No. 
951).
    65. In the Navy, there are 12 appointments to the grade of captain 
and below (list begins with Anthony T. Cowden) (Reference No. 952).
    66. VADM Bruce W. Clingan, USN, to be vice admiral and Deputy Chief 
of Naval Operations for Operations, Plans, and Strategy, N3/N5, Office 
of the Chief of Naval Operations (Reference No. 965).
    67. In the Army, there is one appointment to the grade of major 
(Derek D. Brown) (Reference No. 966).
    68. In the Army, there are two appointments to the grade of major 
(list begins with Stephanie Latimer) (Reference No. 967).
    69. In the Army, there are two appointments to the grade of major 
(list begins with Michelle H. Martin) (Reference No. 968).
    70. In the Army, there are nine appointments to the grade of 
lieutenant colonel and below (list begins with Robert E. Powers) 
(Reference No. 969).
    71. In the Navy Reserve, there are two appointments to the grade of 
captain (list begins with Neri B. Barnea) (Reference No. 970).
    72. In the Navy, there are two appointments to the grade of 
lieutenant commander (list begins with Anita Aminoshariae) (Reference 
No. 971).
    73. In the Navy, there are six appointments to the grade of 
commander and below (list begins with Tracy D. Emerson) (Reference No. 
972).
    Total: 2,559.

    Chairman Levin. Secretary Flournoy.

   STATEMENT OF HON. MICHELE A. FLOURNOY, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Flournoy. Thank you, Chairman Levin, Senator McCain, 
and other distinguished members of the committee. We very much 
appreciate the opportunity to discuss the administration's new 
approach to missile defense in Europe with you today.
    We are confident that our new approach represents a 
dramatic improvement over the program of record. Under the old 
plan, we were not going to be able to deploy a European missile 
defense system capable of protecting against Iranian missiles 
until at least 2017. Under our new plan, we'll be able to 
protect vulnerable parts of Europe and the tens of thousands of 
U.S. troops stationed there by the end of 2011. We'll be 
creating a far more flexible and adaptive missile defense 
system, one that can adapt to provide better protection against 
emerging threats.
    The previous administration had planned to deploy 10 
ground-based interceptors (GBIs) in Poland, a European 
midcourse radar in the Czech Republic, and a TPY-2 radar 
elsewhere in the region. The decision to move forward with that 
particular configuration was made several years ago and it was 
based on threat information and technologies available at that 
time. But circumstances have changed significantly since then.
    First, we now have a rather different intelligence picture; 
and second, we have made major strides in missile defense 
technologies in just the last few years. We are now in a 
position to put a far more effective missile defense system in 
place more rapidly than just a few years ago.
    So let me start by discussing the current threat 
assessments. The Intelligence Community now assesses that the 
threat from Iran's short- and medium-range ballistic missiles 
is developing more rapidly than previously projected, while the 
threat of potential Iranian intercontinental ballistic missiles 
(ICBMs) has been somewhat slower to develop than previously 
estimated.
    In the near term what this means is that the greatest 
missile threats from Iran will be to our allies and our 
partners and U.S. deployed personnel and their families in the 
Middle East and in Europe. Needless to say, this concern is all 
the more urgent in light of Iran's continuing uranium 
enrichment program.
    But as Secretary Gates has noted, we understand that 
intelligence projections can be wrong and can change over time. 
Iran's priorities and capabilities may indeed change in ways 
that we can't predict. So our new approach also hedges against 
the possibility that threats from Iranian long-range missiles 
will evolve more rapidly than we currently predict. We would 
still have 30 GBIs deployed in the United States by the end of 
2010, which will provide the United States with a sufficient 
capability to deal with any Iranian ICBM threat for many years 
to come. What's more, the information from the European 
forward-based TPY-2 radar that does remain part of our new plan 
will significantly enhance the performance of our existing 
U.S.-based GBIs. We will also continue to develop the two-stage 
GBI.
    Let me now turn to highlight some of the technological 
changes that have allowed us to develop an improved approach to 
missile defense. As General O'Reilly and General Cartwright 
will describe in much more detail, improved interceptor 
capabilities developed in the last 5 years now offer us a more 
flexible and capable missile defense architecture. We've also 
significantly improved our sensor technologies. That means we 
have a variety of better options to detect and track enemy 
missiles and guide interceptors in flight to enable successful 
engagements. As a result, we now have missile defense options 
that were not previously available.
    Our new approach, which the President has adopted on the 
unanimous recommendation of both the Secretary of Defense and 
the Joint Chiefs of Staff, will rely on a distributed network 
of sensors and proven SM-3 interceptors, which can be fired 
from both Aegis ships and from land. This means greater 
geographic flexibility, greater survivability, and greater 
scalability in response to an evolving threat. That's exactly 
what we mean by a phased, adaptive approach.
    But before I turn it over to my colleagues to describe the 
system in more detail, I want to say a few words about how our 
new approach has been received by our allies. For us, one of 
the many advantages of this new architecture is that it greatly 
increases our ability to work with our European allies and our 
partners to strengthen extended deterrence and our mutual 
defenses. The new architecture we are creating provides many 
more opportunities for alliance-building and burden-sharing 
between the United States and our NATO partners.
    Indeed, the reactions we have received from our allies have 
ultimately been quite supportive. NATO Secretary General 
Rasmussen has hailed the decision as a positive step and Polish 
Prime Minister Donald Tusk has described it as a real chance to 
strengthen Europe's security.
    We began general discussions earlier this spring and now 
we're in quite specific consultations--with both Poland and the 
Czech Republic about their potential roles in a new missile 
defense architecture. Our Polish allies understand that they 
have the option of replacing the GBIs from the previous plan 
with land-based SM-3 interceptors in the new plan, and we will 
continue to seek Polish ratification of the missile defense 
basing agreement and the supplemental Status of Forces 
Agreement (SOFA). We are also on track once the SOFA is agreed 
to begin the regular rotations of Patriot batteries to Poland, 
as agreed by the previous administration.
    We are also in discussions with the Czech Republic to 
ensure that they continue to play a critical and leadership 
role on missile defense within the alliance. We have several 
joint projects already under way with our Czech partners and 
those will continue. We are already discussing several more, 
including the possibility of having the Czech Republic host 
some of the new system's elements, such as the command and 
control.
    In short, we are standing by our allies in Central and 
Eastern Europe and we are in fact increasing our commitment to 
their defense in very real terms.
    While we certainly welcome Russian interest in the new 
approach, as well as potential Russian cooperation in sharing 
data from their radars, this is not about Russia. It's never 
been about Russia. Regardless of Russian reaction, we will 
continue to do whatever it takes to ensure the security and 
defense of our European allies.
    Let me end here by underscoring this point. Our new 
approach to missile defense in Europe allows us to provide 
coverage to vulnerable parts of Europe much faster than the old 
approach, and when fully deployed in phase four it will be even 
more capable than the program of record against the full range 
of threats, including longer range systems. Our new approach 
will also allow us to augment our current homeland defense 
against ICBMs that may evolve in the future. In sum, we are 
strengthening, not scrapping, missile defense in Europe. We 
look forward to working with members of this committee to make 
this new architecture a reality.
    Thank you again for the opportunity to testify and we look 
forward to your questions.
    [The joint prepared statement of Ms. Flournoy and General 
Cartwright follows:]
Joint Prepared Statement by Hon. Michele A. Flournoy and Gen. James E. 
                            Cartwright, USMC
    Thank you, Chairman Levin, Senator McCain, and members of the 
committee. We appreciate the opportunity to discuss the 
administration's new approach to missile defense in Europe, and to set 
the record straight that the Obama administration is committed to 
deploying timely, cost-effective, and responsive missile defenses to 
protect the United States, our deployed forces, as well as our allies 
and friends against ballistic missiles of all ranges.
    We are confident that our new approach represents a dramatic 
improvement over the program of record. Under the old plan, we were not 
going to be able to deploy a European missile defense system capable of 
protecting against Iranian missiles until at least 2017. Under our new 
plan, we'll be able to protect vulnerable parts of Europe and the tens 
of thousands of U.S. troops stationed there by the end of 2011. We'll 
also be creating a far more flexible missile defense system, one that 
can be adapted to provide better protection against emerging threats.
    Before going into details, I would like to place this decision 
about European missile defense in context. We are in the midst of 
several major defense reviews, one of which is a congressionally-
mandated review of our approach to ballistic missile defense. The 
Department of Defense is leading that review, with active participation 
from the Intelligence Community and a number of other agencies. That 
review is comprehensive and ongoing; it examines our strategic and 
operational approach to missile defense not just in Europe but around 
the world.
    The review is moving forward based on four key principles:

         (1) We must ensure that U.S. missile defenses are responsive 
        to the threats we face today and are likely to face in the 
        future, that the technologies we use are proven and effective, 
        and that our defenses are cost effective;
         (2) We must maintain and improve defenses for the United 
        States and our allies against potential missile attacks from 
        countries such as Iran and North Korea;
         (3) We must renew our emphasis on protecting U.S. deployed 
        forces and their dependents in theater, as well as U.S. allies 
        and friends against regional threats; and
         (4) We must continue to make missile defense an important 
        feature of our international cooperation efforts.

    The results of the Ballistic Missile Defense Review are not due 
back to Congress until January, but as we began our in-depth analysis, 
it became clear very early that circumstances had changed fundamentally 
with regard to missile defense in Europe, so that we would need to make 
some significant adjustments to the previous administration's plan.
    In early 2007, the previous administration decided to seek 
deployment of ground-based interceptors (GBIs) in Poland, a European 
Mid-Course Radar (EMR) in the Czech Republic, and an AN/TPY-2 radar 
elsewhere in the region. The decision to move forward with that 
particular configuration was made nearly 3 years ago, and had been 
considered for several years prior to that, based on the threat 
information and the technologies available at that time.
    Circumstances have changed significantly since early 2007. First, 
we now have a rather different intelligence picture than we had 3 years 
ago, particularly with regard to Iranian capabilities. Second, we have 
made major strides in missile defense technologies and capabilities in 
just the last few years. We are now in a position to put an effective 
missile defense system in place far more rapidly than we were a few 
years ago, one that will be far more flexible, adaptable, and capable.
    The intelligence community now assesses that the threat from Iran's 
short- and medium-range ballistic missiles is developing more rapidly 
than previously projected, while the threat of potential Iranian 
intercontinental ballistic missile (ICBM) capabilities has been slower 
to develop than previously estimated. In the near-term, the greatest 
missile threats from Iran will be to U.S. allies and partners, as well 
as to U.S. deployed personnel--military and civilian--and their 
accompanying families in the Middle East and in Europe.
    Iran already possesses hundreds of ballistic missiles capable of 
reaching neighbors in the Middle East, Turkey and the Caucasus, and is 
actively developing and testing missiles that can reach further into 
Europe. Our intelligence assessments indicate that the continued 
production and deployment of these more capable medium-range missiles 
has become one of Iran's highest missile priorities.
    In the near-to mid-term, this means that the primary threat posed 
by Iranian missiles will be to U.S. allies, our 80,000 deployed forces 
in Europe, our civilian personnel and their families. Needless to say, 
this concern is all the more urgent in light of Iran's continued 
uranium enrichment program. Iran continues to defy international 
obligations, and there continues to be reason to fear that Iran is 
seeking a nuclear weapons option. We hope that won't come to pass. But 
obviously it increases the urgency of developing a truly effective 
missile defense system in Europe for the protection of the North 
Atlantic Treaty Organization (NATO) territory and populations and the 
U.S. Homeland.
    As the Secretary of Defense has noted, we understand that the 
intelligence projections can be wrong, which makes it all the more 
important for us to have a flexible and adaptable missile defense 
system that can evolve with the threat. So we remain very concerned 
about Iran's potential to develop ICBMs, and part of our new approach 
in the later phases is to provide a more effective addition to our 
already existing GBIs based in Fort Greely and Vandenberg Air Force 
Base, which we will address in detail in a minute.
    Let us turn now to the opportunities for improved capabilities.
    Technological developments over the past several years have led to 
new capabilities, demonstrated in multiple tests. Improved interceptor 
capabilities now offer us more flexible and capable missile defense 
architecture, and we have also significantly improved our sensor 
technologies. That means we now have a variety of better options to 
detect and track enemy missiles and guide the interceptor in-flight to 
enable a successful engagement. As a result, we now have new and proven 
missile defense options that were not previously available.
    The previous plan, approved in early 2007, relied on 2 large, fixed 
missile-defense sites, with 10 GBIs in Poland and the EMR in the Czech 
Republic. It was designed to identify and destroy up to about 5 to 10 
long-range missiles, and as noted, the radar and interceptors called 
for under the old plan would not have been in place until at least 
2017.
    Our new approach, which the President adopted on the unanimous 
recommendation of the Secretary of Defense and the Joint Chiefs of 
Staff, will rely on a distributed network of sensors and SM-3 
interceptors. The SM-3 IA is a proven capability with eight successful 
tests since 2007, and it is more than capable of dealing with current 
threats from even multiple short- and medium-range missiles. It and 
future variants also have many advantages over a GBI. The SM-3 is much 
smaller, weighing only about 1 ton compared to the GBI's 25 tons. 
Because it is smaller and fits inside a vertical launch canister, it 
can be fired from Aegis capable ships. Starting with the SM-3 Block IB, 
it will also be able to be fired from land.
    The capability of having a missile defense system that can 
integrate interceptor sites located both at sea and on land offers us 
geographic flexibility that was unavailable under the previous plan. 
Furthermore, the resulting distributed network is more survivable in 
the case of an attack than the single large radar and single missile 
field of the previous plan. The SM-3 IA and IB, at around $10 million 
per interceptor, are also much cheaper than a GBI, which costs around 
$70 million per interceptor. This means that we can deploy scores of 
SM-3 interceptors, again enhancing our defensive capabilities. Since 
Iran already possesses hundreds of short- and medium-range ballistic 
missiles, this is critical.
    The SM-3 will be upgraded over time. Each upgrade will provide more 
capability for countering Iranian threats, meaning each upgrade will be 
able to defend an increasingly larger area.
    Our planned European missile defense architecture includes both 
sea- and land-based missile defense systems, encompassing both 
interceptors and a range of sensors. As our capabilities and 
technologies continue to improve, the architecture will evolve and 
become ever more capable.
    Now to describe our phased adaptive approach. Phase 1 is 
essentially underway; the SM-3 Block IA is already deployed in the 
fleet. In the first phase of our plan, we can provide SM-3 Block IA 
capable warships when necessary for the protection of parts of southern 
Europe. To enhance protection in Phase 1, we will need a forward based 
sensor, probably a TPY-2 radar.
    By including the forward based sensor, we are retaining one of the 
most significant contributions to the defense of the United States from 
the previously proposed architecture. The forward based sensor 
contributes to the defense of the United States by providing early and 
precise track data to our GBIs in Alaska and California. We expect that 
full Phase I missile defense capability will be possible in 2011.
    In Phase 2, to be completed by 2015, we intend to use a more 
advanced version of the SM-3 interceptor, the SM-3 Block IB, which is 
already under development. We will deploy this at sea and on land. By 
adding the land-based sites, we will significantly increase coverage of 
NATO against ballistic missiles from Iran without having to increase 
the number of Aegis BMD ships--a much more cost-effective approach.
    In Phase 3, we will introduce a new, more capable version of the 
SM-3, the Block IIA. This interceptor is currently under development. 
The SM-3 Block IIA will provide full coverage of NATO against short, 
medium, and intermediate range ballistic missiles. We expect to deploy 
the SM-3 Block IIA by 2018.
    In the final phase, Phase 4, we expect to field an even more-
improved SM-3 missile that has anti-ICBM capabilities. This ascent-
phase intercept capability will further augment the defense of the U.S. 
Homeland from potential Iranian ICBM threats. This phase is planned for 
2020.
    It is important to note that the SM-3 based defense against any 
Iranian ICBMs will be additive to the GBI-based defense we already have 
deployed in the United States, at Fort Greely and Vandenberg AFB. As 
noted previously, these U.S.-based defenses will be made more effective 
by the forward-basing of a TPY-2 radar--which we plan by 2011. We 
currently have the ability to defend the United States, including the 
east coast, against any Iranian ICBM, and with the TPY-2 deployment 
planned in Phase 1 and continued improvement of the GBIs, this defense 
will grow even stronger in the next several years. While we expect the 
SM-3 based approach to ICBM defense to work, we also will continue to 
improve our existing GBI-based system here in the United States and 
conduct tests of the 2-stage GBI in the near-term.
    The SM-3's ascent-phased intercept capability in Phase 4 would mean 
that, unlike the previous administration's GBI-based system, Iranian 
missiles would have to defeat not one, but two very different kinds of 
missile defenses.
    Over time, we plan on one land-based site in southern Europe and 
one somewhere in northern Europe. Given the flexibility of the 
architecture, there are a number of options for land-based sites that 
would provide the same capability, including in Poland. The mix of sea-
and land-based systems makes our new approach far more capable and 
adaptable; we can move sensors and interceptors from region to region 
as needed. This approach allows us to scale up our defenses, if 
necessary, by deploying additional SM-3 interceptors much faster and at 
lower costs than adding the much heavier GBIs, and their associated 
silos. In times of crisis, the system can ``flex'' by surging Aegis 
capable ships to the area for more protection and to serve as a visible 
deterrent. This approach also allows us to deal with a wider range of 
potential missile tactics, such as salvo launches. The previous GBI 
architecture could intercept about five to ten missiles at most; the 
new plan's distributed network will be able to cope far more 
effectively should an adversary fire many missiles simultaneously.
    Similarly, replacing the fixed radar site with a mix of sensors 
that are airborne, seaborne and ground-based will allow us to gather 
much more accurate data, and will offer better early warning and 
tracking options combined with a stronger networking capacity. Finally, 
because it relies on a distributed network of sensors and interceptors, 
the new approach is more survivable--less vulnerable to destruction or 
disruption--than the previous plan, which relied on a single large 
radar and a single interceptor field.
    It should be crystal clear that those who say we are ``scrapping'' 
missile defense in Europe are, as Secretary Gates has said, ``either 
misinformed or misrepresenting the reality of what we are doing.'' In 
fact, we are replacing the previous plan with a phased approach that 
delivers more effective and more robust capability sooner.
    To sum up: the Phased Adaptive Approach offers many advantages over 
the previous plan for European missile defense. We will now be able to 
defend the most vulnerable parts of Europe 6-7 years earlier than the 
previous plan. Our new approach will be also able to cover all NATO 
territory and populations, rather than leaving some allies exposed to 
short- and medium-range threats. We will move toward a new additive 
approach to defending the United States against any future Iranian 
ICBM--while continuing to enhance our existing GBI-based defenses. 
Overall, our new approach allows us to better respond to existing 
threats now--and to better prepare for future threats as they emerge.
    Those who assert that the new plan doesn't uphold U.S. security 
commitments to friends and allies, particularly Poland and the Czech 
Republic, are far off the mark. This is a better defense for Europe as 
well as for the United States. All of our missile defense efforts will 
be complementary of and interoperable with those being developed by 
NATO, and the new architecture we are creating provides many 
opportunities for alliance-building and burden-sharing between the 
United States and our NATO partners. NATO Secretary General Rasmussen 
has hailed our decision as ``a positive step''; Polish Prime Minister 
Donald Tusk said it offers a real ``chance to strengthen Europe's 
security.''
    We remain firmly committed to strong bilateral relationships with 
both Poland and the Czech Republic and have already begun discussions 
with both nations about their potential roles in the new missile 
defense architecture. In the coming weeks, we will have numerous 
strategic discussions with the Poles on missile defense and our 
security arrangements. It is prudent that we continue to seek Polish 
ratification of the missile defense basing agreement and supplemental 
Status of Forces Agreement.
    We are also in discussions with the Czech Republic to ensure that 
they continue to play a leadership role on missile defense within the 
Alliance. We have several joint projects already underway with our 
Czech partners, and are discussing several more.
    Last week, in addition to visiting Warsaw and Prague to discuss the 
Phased, Adaptive Approach, Under Secretary Flournoy briefed the North 
Atlantic Council on our new approach and emphasized that we will pursue 
missile defense in a NATO context. The response was very positive, as 
evidenced by the NATO Secretary General's comments last week that ``It 
is my clear impression that the American plan on missile defense will 
involve NATO . . . . to a higher degree in the future. . . . This is a 
positive step in the direction of an inclusive and transparent process, 
which I also think is in the interest of . . . the NATO alliance.''
    This phased adaptive approach better meets our security needs, and 
our security commitments to our European allies and partners. Russia's 
positive response to date is a useful collateral benefit, though we are 
not sure whether and how it will affect their perspective on missile 
defenses. We welcome Russian interest in our new approach as well as 
potential cooperation in sharing data from their radars. But Russian 
reactions notwithstanding, we will continue to do whatever it takes to 
ensure our security and that of our European partners and allies.
    In closing, it is important to note that the strategic thinking 
behind our new approach to European missile defense will also be 
valuable as we continue to address missile defense issues in other 
regions.
    Because the type of system we are planning in Europe can be easily 
adapted to different geographic constraints, it can be applied in 
various regions around the globe, if necessary. In fact, a scaled-down 
version of this approach is already being used for the defense of Japan 
against North Korean missile threats, and for the defense of Israel 
against an Iranian missile attack. Because the assets of this system 
are either mobile or transportable, the new approach provides future 
flexibility to reposition interceptors and sensors if the geopolitical 
environment changes. Because the systems will be upgraded over time, 
the new approach provides a natural evolution to match the threat.
    As the President said, ``our new missile defense architecture in 
Europe will provide a stronger, smarter, and swifter defense of 
American forces, and America's allies. It is more comprehensive than 
our previous program. It deploys capabilities that are proven and cost-
effective. It sustains and builds upon our commitment to protect the 
U.S. Homeland against long-range ballistic missile threats. It ensures 
and enhances the protection of all of our NATO allies.''
    Thank you for your time. We will continue to work with you as we 
move forward on the Ballistic Missile Defense Review, and we look 
forward to your questions.

    Chairman Levin. Thank you, Secretary Flournoy.
    General Cartwright.
    General Cartwright. Sir, we'd ask if General O'Reilly could 
go second.
    Chairman Levin. Sure, of course. General O'Reilly.

 STATEMENT OF LTG PATRICK J. O'REILLY, USA, DIRECTOR, MISSILE 
                         DEFENSE AGENCY

    General O'Reilly. Good morning, Mr. Chairman, Senator 
McCain, and distinguished members of the committee. I 
appreciate the opportunity to testify before you today on the 
technical aspects of the President's decision to use a phased, 
adaptive approach to provide missile defense in Europe. This 
new proposal is a more powerful missile defense of NATO, 
enhances U.S. Homeland defense, is deployable to theaters 
around the world, and is more adaptable to respond to threat 
uncertainties.
    The previous proposed missile defense of Europe consisted 
of four components: a command and control system, 10 GBIs, in 
Poland; an X-band discrimination radar in the Czech Republic; 
and an X-band precision tracking forward-based radar in 
southeastern Europe. Assuming a shot doctrine of two 
interceptors against each threat missile, this previous missile 
defense architecture had a maximum capability to engage five 
intermediate-range ballistic missiles or medium-range ballistic 
missiles aimed at Europe, or five ICBMs aimed at the United 
States from the Middle East.
    The most valuable component of the previous architecture to 
the defense of the U.S. Homeland was the forward-based X-band 
radar in southeastern Europe, which would provide early and 
precise tracks of threat missiles from the Middle East heading 
towards the United States, thus increasing the accuracy of the 
fire control instructions to our GBIs based at Fort Greely, AK, 
and Vandenberg Air Force Base, CA.
    We remain concerned about the future Iranian ICBM threat. 
Therefore we are retaining the forward-based sensor component 
in our new phased adaptive approach proposal. Moreover, we will 
also continue to develop the GMD, ground-based midcourse 
defense system, and begin testing against ICBM targets using 
representative Iranian trajectories.
    A significant limitation of the previous European 
architecture was that the GBIs were being used in ICBM, 
Intermediate Range Ballistic Missile (IRBM), and Medium Range 
Ballistic Missile (MRBM) defense roles. Although we have only 
tested the GBIs against IRBMs, that is in ranges less than 
5,500 kilometers, it is currently our only interceptor designed 
against intercontinental ballistic missiles. The earliest 
operational date of the previous architecture is now 2017.
    Given the current threat estimate, by 2017 the European-
based GBIs could be rapidly consumed by an attack of five IRBMs 
or MRBMs aimed at NATO countries, leaving no GBIs to contribute 
to U.S. ICBM defense.
    Therefore, the previously proposed European defense 
architecture was insufficient to counter the quantity of 
ballistic missile threat faced by NATO and our forward-deployed 
forces and still provide redundant coverage of the U.S. 
Homeland.
    The area of greatest opportunity for increased missile 
defense capability is our achievements in developing faster and 
more accurate command and control, battle management, and 
communications systems which combine data from a network of 
different sensors, especially sensors that track missiles in 
the early phases of their flight, rather than using a large 
radar in a region. For example, our successful intercept of the 
ailing satellite in February 2008 was based on our ability to 
combine data from sensors around the world and provide a highly 
accurate track of the satellite to an Aegis BMD ship and launch 
the modified SM-3 IA prior to the ship's radar even seeing the 
satellite. Although this is a very limited capability against 
an inoperable satellite, it demonstrated the great increase in 
capability of networking sensors to a missile defense 
architecture.
    Fortunately, we have made significant advances over the 
last several years in missile defense technologies that enable 
the phased adaptive approach. The Aegis Standard Missile Block 
IA, or SM-3 IA interceptor, is a very capable weapon due to its 
high acceleration, velocity, and its proven track record, and 
our ability to rapidly increase to over 80 interceptors at any 
one launch site.
    Since we began testing the operationally configured SM-3 
Block IA missile in June 2006, we have successfully intercepted 
a target eight out of nine times in which we had launched an 
interceptor. We also are developing the next generation kill 
vehicle for the SM-3 interceptor, the SM-3 IB, which uses the 
same rocket motor as the SM-3 IA, but has a more advanced 
seeker and fire control system that uses external sensors as 
well as the Aegis shipborne radar.
    We have already demonstrated the higher risk components of 
the new kill vehicle and are planning the first intercept test 
in the winter of 2011. We have had many demonstrations of using 
networks of sensors, including the most recent intercept by the 
ground-based midcourse defense system last December, when we 
combined the tracks of satellites, early warning radars, sea-
based X-band radars, and forward-based radars on land and at 
sea to provide the GBIs with a very accurate track.
    Additionally, we have demonstrated unmanned aerial vehicles 
as highly accurate forward-based defense sensors in intercept 
tests last spring.
    Tomorrow morning we are scheduled to launch a pair of 
demonstration Space Tracking and Surveillance System Satellites 
from the Kennedy Space Center that will detect and track 
ballistic missiles over their entire flight.
    Finally, at our External Sensors Laboratory at Schriever 
Air Force Base, CO, we continue to develop new algorithms and 
demonstrate combining their sensor data to achieve even more 
accurate tracks than any individual sensor could produce. A 
more advanced variant of the SM-3, the SM-3 IIA, has been under 
development since 2005. This interceptor will have more than 
twice the range of an SM-3 Block IB. SM-3s are also more 
affordable than GBIs since you can procure four to seven 
production variants of an SM-3 for the cost of one GBI.
    But the key attribute is that we can launch SM-3s from sea 
or land, which gives us great flexibility in locating the 
interceptor launch point between the origin of the threat 
launch and the area that you are trying to protect. This is a 
key enabler in intercepting threat missiles early in their 
flight.
    We propose defending NATO in phases. Phase one would 
consist of Aegis ships with SM-3 Block IA missiles deployed in 
the eastern Mediterranean and a forward-based sensor in 
southeastern Europe. We propose by 2015 deployment of the SM-3 
Block IB missile, which will have greater capacity to use the 
network of sensors and greater ability to discriminate threat 
objects. Scores of SM-3 IBs would be deployed at land and sea-
based locations.
    By 2018, the deployment of the SM-3 IIA missile, which 
could defend all of NATO from two land-based locations and one 
sea-based location. By 2020, our goal is to leverage the 
lightweight kill vehicle technology to develop a higher 
velocity SM-3 Block IIB missile to destroy MRBMs, IRBMs, and 
ICBMs early in flight from launch locations within the theater 
of the threat launch location. Two land-based SM-3 Block IIB 
sites would protect all of NATO.
    The timetable which I have presented allows for these 
missile defense technologies to be tested and proven prior to 
deployment decisions. An additional advantage to a phased 
adaptive approach is the applicability to missile defenses 
outside of Europe. As an example, if the land-based SM-3 site 
were in Hawaii, it would provide significant protection of 
those islands.
    We are committed to fully funding this program as we 
prepare for the next budget submission to Congress. However, it 
is important that we have relief from rescissions and 
flexibility to spend the unused fiscal year 2009 Research, 
Development, Test, and Evaluation and some Military 
Construction dollars associated with the previous European site 
proposal. I note that both the House and Senate authorizing 
committees have very presciently included provisions in this 
year's National Defense Authorization bill that permit the 
Department to use fiscal year 2009 and fiscal year 2010 funding 
for an alternative architecture once the Secretary of Defense 
certifies that this architecture is as cost-effective, 
technically reliable, and operationally available as the 
previous program. With this relief and some redirection of 
fiscal year 2010 funds, we can pursue this architecture within 
our fiscal year 2010 budget request.
    Finally, I was very gratified last Thursday when I was 
given the opportunity to personally meet with the members of 
the delegations of Poland and the Czech Republic that I have 
been working closely with for the past 3 years and explain that 
we were not backing out of our commitments, we would still 
honor our ballistic missile agreements for them to host our 
components of a missile defense architecture and other allies 
would also have that opportunity. Likewise, in addition to the 
radars in Armavir, Russia, or Gabala, Azerbaijan, the 
cooperative development of missile defense technologies by 
Russia and other countries are not necessary, but they would be 
welcome.
    My assessment is that executing this approach is 
challenging, but no more challenging than the development of 
our other missile defense technologies. Technically challenging 
endeavors endure setbacks, but the engineering is executable 
and the development risks are manageable.
    Thank you and I look forward to your questions.
    [The prepared statement of General O'Reilly follows:]
           Prepared Statement by LTG Patrick J. O'Reilly, USA
    Good morning, Mr. Chairman, Senator McCain, and distinguished 
members of the committee. I appreciate the opportunity to testify 
before you today on the technical and programmatic details of the 
President's decision to use a Phased Adaptive Approach to enhance 
missile defense protection for the United States and Europe for our 
friends, allies, our forward-deployed forces, civilian personnel, and 
their families there. This new proposal would provide a more powerful 
missile defense capability for the North Atlantic Treaty Organization 
(NATO), enhance U.S. Homeland defense, and would be applicable in other 
theaters around the world to counter a growing ballistic missile 
threat, and would more adaptable to respond to threat uncertainties and 
developments. With the Phased Adaptive Approach, we are not scrapping 
or diminishing missile defense--rather we are strengthening it and 
delivering more capability sooner.
    In 2006 the Defense Department proposed a long-range missile 
defense of Europe that consisted of four components: a command and 
control system; 10 ground-based interceptors (GBIs) in Poland; an X-
band discrimination radar in the Czech Republic; and an X-band 
precision doctrine of two interceptors against each threat missile, the 
2006 proposed missile defense architecture provided an upper-tier 
missile defense to intercept five Intermediate Range Ballistic Missiles 
(IRBMs) aimed at Europe, or it could intercept five Intercontinental 
Ballistic Missiles (ICBMs) aimed at the Continental United States from 
the Middle East. The most important component of the 2006 proposed 
architecture to the defense of the U.S. Homeland was the forward based 
X-band radar in Southeastern Europe, which was to provide early and 
precise tracks of threat missiles from the Middle East, increasing the 
accuracy of the fire control instructions to our GBIs based at Fort 
Greely, AK, and Vandenberg Air Force Base, CA. We remain concerned 
about a future Iranian ICBM threat; therefore, we are retaining the 
forward-based X-band radar of the 2006 proposed European missile 
defense architecture in our new Phased Adaptive Approach proposal. We 
will also continue to improve our domestic GBI-based system and conduct 
research and development for the two-stage GBI in the near term.
    Under the Phased, Adaptive Approach, we propose defending Europe in 
phases starting with the area most vulnerable to today's Iranian 
missile threat: southern Europe. Phase 1 would consist of Aegis ships 
with sea and a forward-based sensor in southern Europe. This will 
provide protection across much of the southern tier of Europe against 
Iranian medium-range ballistic missiles.
    We propose by 2015 the deployment of the SM-3 Block IB missile, 
which will have a greater capacity to use a network of sensors and 
greater ability to discriminate threat objects. Once this technology is 
proven in our test program these interceptors would be deployed at 
land- and sea-based locations and extend protection against medium-
range ballistic missiles launched from the Middle East.
    By 2018, the deployment of the SM-3 Block IIA missile, an 
interceptor with greater range currently being developed, could defend 
all of Europe from land- and sea-based locations. By 2020, our goal is 
to leverage the lightweight kill vehicle technology developed in the 
now terminated Multiple Kill Vehicle program to develop a higher 
velocity SM-3 Block IIB missile that would destroy ballistic missiles 
early in flight, during the ascent phase, from many hundreds of 
kilometers from the threat launch location. This missile would still 
fit on today's Aegis launch system. With that capability, two land-
based SM-3 Block IIB sites could protect all of Europe. The tested and 
proven prior to deployment decisions.
    A significant limitation of the previous European architecture was 
that the GBIs were used in both ICBM and IRBM defense roles. Although 
we have only tested the GBIs against IRBMs (ranges less than 5,000 km), 
it is currently our only interceptor designed against ICBMs. The 
earliest operational date of the 2006 proposed architecture is 2017 and 
more likely 2018 considering the host nation approvals that would have 
been required to construct the facilities. When deployed in 2017 the 
European based GBIs could be consumed by an attack of 5 IRBMs aimed at 
NATO countries, leaving no two-stage GBIs to contribute to U.S. ICBM 
defense. Therefore, the previously proposed European Defense 
architecture is insufficient to counter large raid sizes. Under the 
Phased, Adaptive Approach, the SM-3 Block IIB would be able to 
accommodate a large IRBM and ICBM missile threat and diversify the 
technology that we are using to counter Iranian ICBMs, providing a 
layered defense.
    We have made significant advances in missile defense technologies 
that enable the Phased Adaptive Approach. First, the interceptors we 
are developing are smaller, faster and have greater on-board 
discrimination capability. The sea-based Aegis BMD SM-3 interceptor 
would provide a burn out velocity, proven track record (for the SM-3 
IA), and our ability to rapidly increase the number of interceptors at 
any launch site. Since we began testing the operationally configured 
SM-3 Block IA missile in June 2006, we successfully intercepted the 
target in eight out of the nine times we have launched the interceptor. 
We are also taking a deliberate approach to the development and testing 
of the next generation kill vehicle for the SM-3 interceptor, the SM-3 
IB, which has a more advanced seeker and a fire control system that 
uses external sensors as well as its ship's radar. We have already 
demonstrated the higher risk components of the new kill vehicle: the 
solid propellant Divert and Attitude Control System, new seeker, and 
fire control system with good results. The first test of the SM-3 IB is 
scheduled for the winter of 2011.
    The area of greatest opportunity for increased missile defense 
capability involves our achievements in developing faster and more 
accurate Command Control, Battle Management, and Communication 
capabilities, which combines data from a network of many different 
sensors (especially sensors that track missiles in the early phases of 
their flight), rather than using single large radars in a region. Key 
to our successful intercept of the ailing satellite in February 2008 
was our ability to combine the satellite to an Aegis ballistic missile 
defense ship and launch the modified SM-3 IA prior to the ship's radar 
seeing the satellite. We have had many other demonstrations of these 
capabilities to date, to include the most recent intercept test of the 
Ground-based Midcourse Defense system last December, when we combined 
the tracks of satellites, early warning radars, Sea Based X-band radar 
and forward-based radars on land and at sea to provide the GBIs with a 
very accurate track. Additionally, we have also demonstrated the 
capability of Unmanned Aerial Vehicles as highly accurate forward-based 
missile defense sensors in the Navy's ``Stellar Daggers'' series of 
intercept tests last spring. Tomorrow we are scheduled to launch a pair 
of demonstration Space Tracking and Surveillance System (STSS) 
satellites that will detect and track ballistic missiles over their 
entire flight. Over the next few years we will conduct several tests 
using the tracking capabilities of these STSS demonstration satellites, 
including the launching of an interceptor from an Aegis ship, to 
intercept ballistic missile targets. Finally, at our External Sensors 
Laboratory at Shriever Air Force Base, CO, we continue to develop new 
algorithms and combine new sensor data to achieve even more accurate 
tracks than any individual sensor could produce.
    A more advanced variant of the SM-3, the SM-3 IIA has been under 
development with our Japanese partners since fiscal year 2006. This 
interceptor will have the range to defend all of NATO from only a few 
small sites. SM-3s are also more affordable than GBIs (you can buy four 
to seven production variants of the SM-3s, IA or IB, for the cost of 
one GBI). But the key attribute is that we can launch SM-3s from sea or 
sites on land, which gives us great flexibility in locating the 
interceptor launch point between the origin of the threat launch and 
the area we are trying to protect a key enabler to intercepting threat 
missiles early in flight. One advantage of land-based SM-3s over the 
previous GBI missile field proposal is that they can be relocated if 
the direction of the threat changes rather than waiting the more than 5 
years needed to construct a new GBI missile field.
    I would note that the new Phased Adaptive Approach offers greater 
opportunities for our close allies, including Poland and the Czech 
Republic, to collaborate on the missile defense architecture--by 
hosting sites or providing funding or capabilities that could be linked 
to provide a network of missile defenses. Likewise, the radars at 
Armavir and Gabala could augment the proposed sensor network and that 
type of collaboration could perhaps be a catalyst for Russia to join 
countries participating in our cooperative development of missile 
defense technologies.
    An additional advantage of the Phased Adaptive Approach is that 
efforts over the next several years to develop, test, and procure the 
sensor, command and control, and interceptor upgrades for deployment of 
this architecture have application in the United States and theaters 
other than Europe. As an example, if the land-based SM-3 is tested in 
Hawaii, it would also provide continuous protection of those Islands.
    We are committed to fully funding this program as we prepare for 
the next budget submission to Congress. However, it is important that 
we have relief from rescissions and the flexibility to spend the unused 
fiscal year 2009 RDT&E and some MILCON dollars associated with the 
previous European Site proposal. With relief from some of the 
constraints placed on our fiscal year 2009 budget and support for 
redirection of some fiscal year 2010 funds, we believe we can start 
work on components of this new architecture within our fiscal year 2010 
budget request.
    I would note that both House and Senate authorizing committees very 
presciently included provisions in this year's National Defense 
Authorization bill that permit the Department to use fiscal year 2009 
and fiscal year 2010 funding for an alternative architecture once the 
Secretary of Defense certifies that this architecture is expected to be 
consistent with the direction from the North Atlantic Council, 
operationally effective and cost-effective, and interoperable with 
other missile defense components. I believe the President's new plan 
meets these criteria and would strongly reinforce NATO's overall 
approach to missile defense.
    My assessment is that executing this approach is challenging, but 
no more challenging than the development of other missile defense 
technologies. It is more adaptable, survivable, affordable, and 
responsive than the previous proposal, while enhancing the defense of 
the U.S. Homeland and our European allies. There will be setbacks, but 
the engineering is executable and development risks are manageable.
    I look forward to discussing the specifics of the Phased, Adaptive 
Approach with Members and staff in this and other forums.
    Thank you and I look forward to your questions.

    Chairman Levin. Thank you very much, General O'Reilly.
    General Cartwright.

  STATEMENT OF GEN. JAMES E. CARTWRIGHT, USMC, VICE CHAIRMAN, 
                     JOINT CHIEFS OF STAFF

    General Cartwright. Chairman Levin and Senator McCain, 
thank you for this opportunity. I've had the privilege of 
working in the missile defense architecture and warfighting 
requirements for over 10 years now, both on the Joint Staff as 
a combatant commander and now as the Vice Chairman.
    The congressionally-directed BMD review has provided the 
opportunity to review our objectives, the threat, the combatant 
commander's needs, and the technologies available to fulfill 
their needs. Our recommendations are not a departure from the 
objectives. The needs of the combatant commanders, however, 
reflect an adjustment in the balance of our capabilities in 
response to the threats they face today and the threats that 
are clearly visible on the horizon.
    My colleagues have laid that case before you. You asked me 
to address the architecture and the broader implications of our 
recommendations across all of our combatant commanders. First 
in the objectives, we remain solid in defense of the homeland, 
deployed forces, friends and allies. The architecture remains 
associated with the phases of flight of a ballistic missile: 
boost, midcourse, and terminal. Integration of the midcourse 
and the terminal is probably our most recent demonstrated 
capability. Midcourse is associated with the GBIs that are 
currently based in Alaska and California and usually associated 
with ICBMs. The terminal phase, that phase in which the missile 
comes back down into the atmosphere towards its target, was 
demonstrated in our deployment of the Theater High Altitude 
Area Defense ( THAAD) capabilities in the SM-3 to Hawaii last 
July when we were defending against a potential launch of a TD-
2 from North Korea. This was the initial integration and, 
rudimentary as it was, started to demonstrate the value of 
being able to integrate across the architecture the phases of 
flight, the weapons, and the sensors.
    We still remain committed to addressing all of the range of 
ballistic missiles from short to ICBMs, and all of the various 
launch venues, from pads to silos to mobile launchers. These 
are critical to our combatant commanders in their addressal.
    We also remain committed to what has been referred to as 
rudimentary threats, the two, three to five missiles 
potentially coming out of a rogue nation. But in addition to 
that, the combatant commanders need the ability to defend our 
forces deployed in the field and our allies against raids. We 
have seen in the video clips over the last couple of years the 
raid-type demonstration, salvo launches out of Iran. These are 
troubling.
    Current systems developed for point defense can handle two 
or three inbound missiles. We need to move forward to be able 
to handle these raids. They are critical to the defense and 
they are critical to our combatant commanders.
    On the other side of the coin here, as a friendly, we 
remain committed to the defense of the homeland, a theater 
capability, which is emerging with the SM-3 and the THAAD 
systems, and our point defense capabilities, which are handled 
by our Patriot PAC-3 systems. The point defense systems that we 
have deployed today are capable of handling large population 
areas, seaports, airports, bases where our forces are deployed. 
Theater systems are for the general area associated with a 
combatant commander's area of operations and they are necessary 
and they are emerging as the greatest need that we have today, 
that we face out there against these short- and medium-range 
ballistic missiles.
    Adaptive and responsive are two attributes that we find 
critical. As General O'Reilly said, the first leverage point 
that we have in our technologies is the common command and 
control system. This is a global system. This is not a regional 
system. This is not a platform system. This is a global system 
that integrates sensors, weapons, puts them together in a way 
that optimizes their use in the theater and across the globe.
    Fixed, relocatable, and mobile systems are also critical to 
us. The fixed systems are the easiest to operate. They are the 
most permanent. They give you an enduring capability. The 
relocatable systems accept the fact that the threat may change, 
that the enemy may change their approach to the problem, and in 
days or weeks we are able to move these relocatable, mostly 
sensors, some weapons, to places that are more advantageous 
based on the threat that emerges. Our mobile systems are the 
most adaptable. They are available to reinforce. They are 
available to fill in which threats change quickly, and they are 
globally deployable, most notably on the Aegis platform.
    Any weapon, any sensor, is where we're headed. Our ability 
to net together any weapon and any sensor and create the 
opportunity for a fire control solution is critical to the 
architecture as we build it.
    We are in the process here, as we demonstrate in the 
European architecture and the phases, moving to a construct 
that General O'Reilly alluded to when we shot down the errant 
satellite, which is to understand that, particularly with our 
SM-3 and our Patriot, the weapons are far more capable than 
their organic sensors. They have greater kinematic ranges, they 
have better ability to intercept if they're put with a more 
capable sensor.
    So what you see in the early phases, phases one and two of 
this Europe capability and moving to phase three, is really the 
acknowledgment that we are pairing longer range sensors with 
weapons that are capable of flying longer ranges, but are 
currently paired with sensors that can't see far enough to get 
them out there. That's probably the biggest advantage and the 
biggest differentiation between phases one, two, and three.
    There are hardware differences, but the reality is what 
we're doing here is taking advantage of systems that we already 
have, pairing them up with sensors that can reach out further 
and address the threats. They also, these new sensors, are able 
to address raid-sized threats. Organic sensors can handle a 
very limited number of inbound targets. These newer, larger 
sensors that are relocatable, that we are putting out, are 
capable of handling raids and capable of seeing much further 
out, and therefore give us a much greater defended space.
    Another attribute that we're very interested in with this 
new architecture is the idea of a collective defense. This is 
not a U.S.-only approach. In other words, first and foremost 
many nations have bought the Patriot system. Many nations have 
bought the Aegis system. They can be integrated and are being 
integrated into this architecture and this command and control 
system. Probably the most visible example are the Japanese and 
their integration of their Aegis systems. The South Koreans are 
following very quickly behind that.
    The many Patriot systems that are deployed, particularly 
throughout Europe and the rest of the world, are easily 
integrated into this system. That to us is a very high leverage 
issue. In other words, we don't have to buy all of these 
weapons, nor do we have to buy all of these sensors.
    In the case of indigenous systems, for instance the Arrow 
associated with the Israelis, we are integrating that weapons 
system into this architecture. That opportunity gives us a 
great amount of flexibility as we move to the future. We're 
also integrating other nations' sensors into this system. So 
this opportunity has a much broader leverage point in its 
collective nature and its ability to integrate both U.S. 
systems that have been sold abroad and indigenous systems from 
other countries into the architecture.
    That allows us also to adapt to the threat as it emerges 
and where it emerges, and we are not locked to any one single 
location to address the threat that evolves over the next few 
years.
    The last attribute that I'd like to talk to in this 
architecture is the multi-mission attribute. Today we are 
focused on ballistic missiles. The reality is that we have 
challenges with cruise missiles. This command and control 
system, these weapons systems, can be adapted, can handle 
cruise missile type capabilities. They also are capable of 
handling air threats, and we can adapt this into our warning 
system and we can also bring this system--and are about to 
demonstrate over the next couple of months--online to be able 
to handle space situation awareness, something that is the 
number one issue associated with U.S. Strategic Command's 
(STRATCOM) space mission, our ability to do space situation 
awareness. These sensors, based on software programming, can 
handle that mission as well.
    So we get several bangs for the buck, as the chairman said, 
more than a three-fer really here, sir, I believe, out of this 
system. It is adaptable, it is resilient. It has the ability 
and the flexibility to go after the threats as they emerge, to 
lead turn the threats when necessary, and to reinforce in areas 
where we did not plan to be.
    I thank you for this opportunity and I stand ready for your 
questions, sir.
    Chairman Levin. General, thank you.
    Why don't we try a 7-minute first round for questioning. We 
have a number of Senators here.
    General Cartwright, is it correct that the new approach 
that was approved by the President has the unanimous support of 
the Joint Chiefs?
    General Cartwright. It does, sir, and also the combatant 
commanders.
    Chairman Levin. Would you say that this is a strong support 
from the Chiefs?
    General Cartwright. It is unwavering.
    Chairman Levin. Did the Chiefs have a role in developing 
this recommendation?
    General Cartwright. Yes, sir. We did this under the aegis 
of the BMD review that was directed by Congress. We had started 
this review actually 3 years ago when we adjusted many of our 
buy rates towards the SM-3 and the development of the THAAD. 
That was an input from the combatant commanders that came in 
during one of our defense senior leader conferences. We have 
worked that hard with the combatant commanders, and the Chiefs 
and the commanders believe this is the right way to go.
    Chairman Levin. Now, there's been a suggestion that this 
new approach represents a reduction in our security commitment 
to our allies, particularly to Poland and the Czech Republic. 
My question is this, General. Would you and the Chiefs make a 
recommendation that diminishes our commitment to our NATO 
allies?
    General Cartwright. I can't forecast what we wouldn't do, 
but I've never seen that trend.
    Chairman Levin. It's also been suggested and stated that 
this is a better, faster way to deal with the Iranian threat. 
Is it?
    General Cartwright. It is, and also the North Korean 
threat.
    Chairman Levin. You've described as to why it is, so I'm 
not going to ask you to go through that again. But do the 
Chiefs agree that this is a better, faster way to deal with the 
Iranian missile threat?
    General Cartwright. They do. There is particularly solid 
support both from the Chief of Staff of the Air Force and the 
Chief of Naval Operations as they move forward. The Chief of 
Naval Operations has a very large play in this as we move to 
the SM-3. His support, both at sea and now on land, of that 
system is solid. He is a strong advocate for that approach.
    Chairman Levin. Now, it's also been suggested that this 
recommendation and decision was aimed at placating Russia. Is 
that at all a factor in the Chiefs' recommendation?
    General Cartwright. Not in the Chiefs' recommendation, no, 
sir.
    Chairman Levin. Now, Secretary Flournoy, you quoted Prime 
Minister Tusk of Poland, and there were some early comments 
from some Polish leaders which were very critical. It seems 
that the later comments, as I quote in my opening comments, are 
much more supportive. But nonetheless, you've quoted Tusk as 
saying that this represents a real chance to strengthen 
European security. Is that the Polish position or is the 
earlier position the Polish position?
    Ms. Flournoy. I believe that what I quoted from the Polish 
prime minister is the Polish position. I think that some of the 
early reactions, frankly, were based on erroneous and 
speculative press reporting. It was before they had actually 
been briefed by us on the full degree of the plan. It was 
before they had a chance to talk with President Obama, 
Secretary Clinton, and others. I think once they understood 
what it was we were actually proposing, they're quite pleased 
with the proposal.
    Chairman Levin. Why was there not an earlier briefing or 
conversation with them?
    Ms. Flournoy. There were earlier briefings on missile 
defense in general and some of the ideas we were thinking 
about, going back to the spring. I think as we got closer to a 
decision one of the challenges we faced was that we started to 
have a number of leaks from various discussions, and again that 
led to speculative reporting. So I think that accelerated the 
timeline for actually making the decision public. We wanted to 
set the record straight.
    Chairman Levin. You say that you met with the Poles and the 
Czechs recently?
    Ms. Flournoy. Last week. A team of us went out last week, 
yes, before the President announced his decision.
    Chairman Levin. That was before?
    Ms. Flournoy. Yes.
    Chairman Levin. Is that the same meeting, General O'Reilly, 
that you made reference to?
    General O'Reilly. Yes, sir.
    Chairman Levin. What was the reaction or the response at 
that meeting to what you told them?
    Ms. Flournoy. I think at those meetings they were taking in 
a lot of information. It was somewhat contrary to what they had 
read in the press and therefore expected. But literally over 
the course of the day, I think the reaction became quite 
positive. Particularly by the time we got to the North Atlantic 
Council (NAC), and were able to brief all of the NATO permanent 
representatives there, we got a uniformly positive response.
    Chairman Levin. Were the Poles and the Czechs part of the 
NAC meeting?
    Ms. Flournoy. Yes.
    Chairman Levin. They were at that NAC meeting?
    Ms. Flournoy. Yes, they were.
    Chairman Levin. That was a uniform response?
    Ms. Flournoy. Yes. They were all very supportive and then, 
by then, looking to discuss, well, how do we actually solidify 
our continued participation in the new architecture.
    Chairman Levin. Were you at that meeting at the NAC also?
    Ms. Flournoy. Yes.
    Chairman Levin. No, no. I'm asking General O'Reilly.
    General O'Reilly. Yes. Secretary Flournoy and I briefed the 
NAC that afternoon.
    Chairman Levin. Would you describe the reaction at the NAC, 
including the representatives from the Czech Republic and 
Poland, as she did?
    General O'Reilly. Yes, very positive.
    Chairman Levin. In terms of the Russia issue, General 
O'Reilly, about the possibility of U.S.-Russian missile defense 
cooperation. Is there any advantage in that technically to us 
if there were such cooperation? If we can work out something 
with the Russian radar, for instance, is that of value to us?
    General O'Reilly. Yes, sir, it would be. Again, as I stated 
before, it's not necessary. However, both the geographic 
locations of Gabala and Armavir provide different views of the 
Iranian missile space and that would enhance our accuracy of 
our early tracks. Not only that; those are very large radars 
and they have significant power to not only observe Iran, but 
the entire region way beyond what our smaller forward-based 
radars would. So there would be a technical enhancement of 
that.
    Chairman Levin. Now, in terms of that radar, have you had 
discussions with the Russians? Have you had technical 
discussions with the Russians? Have you met with them?
    General O'Reilly. Over the past several years, yes, sir. 
The last was May of this year.
    Chairman Levin. Secretary Flournoy, if we were able to 
involve the Russians somehow in a missile defense system and 
gain the benefit of their radar information, for instance, in 
addition to being useful technically, not necessary but 
advantageous, as General O'Reilly has just told us, would there 
be a positive powerful political signal to Iran if we could 
involve Russia in a joint missile defense?
    Ms. Flournoy. Yes. I think anything we can do to show Iran 
a united front would be very helpful. I also think it would 
help to get the Russians over the hump of not viewing any of 
our missile defense activities as threatening to them. It's 
never been the case and it shouldn't be viewed as such.
    Chairman Levin. Did we cave to the Russians in doing this 
in any sense?
    Ms. Flournoy. No. I was part of many of the decisionmaking 
meetings. That was not the driving factor. This has never been 
about Russia.
    Chairman Levin. General Cartwright, do you agree with that?
    General Cartwright. I do. I've been in most all of those 
decisionmaking processes with the Secretary.
    Chairman Levin. Thank you.
    Senator McCain.
    Senator McCain. I thank the witnesses, and I won't take too 
long because the issue has been decided in really remarkable 
fashion, in the category you can't make it up.
    For Czech Prime Minister Jan Fischer, the news came in a 
call hastily placed by President Barack Obama shortly after 
midnight on Thursday in Prague. In Warsaw, his Polish 
counterpart Donald Tusk initially declined to answer the phone 
from the White House as he guessed the purpose from the unusual 
timing and wanted to prepare a response.
    I'm so pleased to hear that our allies now are pleased and 
happy, but I guess the report of yesterday that says 
``President Kaczynski has said that if he meets President Obama 
at today's U.N. General Assembly he will not try to hide his 
disappointment over the anti-missile shield decision.'' 
Kaczynski, presently in New York, is quoted on TV in 24 News as 
saying ``I do not intend to say that we are satisfied.'' It 
goes on.
    The Foreign Minister of Poland said: ``I hope this will 
prove a salutary shock, especially for the right end of 
Poland's political spectrum,'' Sikorski told TOK-FM Radio, 
adding ``It could lead some to rethink the dream of basing 
everything on a bilateral alliance with the United States. We 
are a European country and here first and foremost we must seek 
our security guarantees.'' I think that message is very clear, 
so I'll ask to have included in the record these many comments.
    Chairman Levin. They will be made part of the record.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Senator McCain. Mr. Chairman, I have over a long life had 
many, many contacts and relationships with individuals and 
leaders and former leaders of both Poland and the Czech 
Republic and I can tell you their comments to me are not that 
they are satisfied. In fact, they were surprised--midnight 
phone calls--and very much disturbed by what is perceived to be 
by them and in the world a unilateral concession to the 
Russians in order to hope that we can get cooperation from the 
Russians in trying to address the Iranian nuclear issue.
    So I guess I should have to comment also that, as short a 
time ago before this committee on March 10, 2009, Lieutenant 
General Maples, Director of the Defense Intelligence Agency, 
testified: ``Iran's 2 February 2009 launch of the Sofir space 
launch vehicle shows progress in mastering the technology 
needed to produce ICBMs. Iran has boosted the lethality and 
effectiveness of existing missile systems with accuracy 
improvements and new sub-munition payloads.''
    In 2009, NDA stated: ``Iran continues to develop ballistic 
missiles capable of striking Israel and Central Europe and 
could have an ICBM capability of reaching the United States''--
this was just last May--``the United States before 2015.''
    General Cartwright, you stated back in February that the 
technologies for boosting satellites into space ``are 
compatible with an ICBM-type capability.'' You did clarify that 
this was not a long-range missile, but it was the path towards 
that, and that we should be concerned with it.
    I don't have access to intelligence information, but I 
think perhaps one would interpret your remarks today as a 
significant shift from testimony a short time ago, this past 
May. Is that an accurate assumption, General Cartwright?
    General Cartwright. I think from the standpoint of the 
space launch that the Iranians conducted and their 
demonstration of the ability to stage, that they are getting at 
the early phases of an ICBM capability. I still believe that to 
be the case. But they have several phases that they must go 
through yet that will take them measured in years rather than 
months to accomplish.
    Those phases are very visible, and that's one of the key 
considerations for us to watch. Any time you start to work with 
reentry vehicles, any time you start to move in that direction, 
that is very visible activity and generally takes a nation 
several years to accomplish. That doesn't include mating it to 
a weapon.
    So we are concerned about the progress and the technologies 
that the Iranians are demonstrating them. The pace at which 
they're demonstrating them has been stretched out more than we 
originally believed was going to be the case.
    Senator McCain. Then I guess, General Cartwright, isn't it 
true that the North Koreans were not anticipated by the 
Intelligence Communities? I think I can provide a factual 
record to substantiate that.
    General Cartwright. I think the twist in the North Korean 
case in the Taepodong 2 systems has been the movement toward 
the space capability, which demonstrates again probably the 
same or similar----
    Senator McCain. The question, General Cartwright, is did we 
miss? Did we have wrong intelligence information about the 
progress that the North Koreans had made, both in their nuclear 
capability and their missile capability?
    General Cartwright. I think that the intelligence, as you 
say, sir, has been wrong on that.
    Senator McCain. I have one more question. I understand that 
now it will be sea-based, part of our missile defense shield 
will be in sea-based missile defense weaponry; is that correct?
    General Cartwright. Yes, sir.
    Senator McCain. Does that mean that we could anticipate a 
budget request for more ships?
    General Cartwright. I'd have to go back and look. Right now 
we are modifying existing ships and existing classes of ships.
    [The information referred to follows:]

    Full analysis of the long-term programmatic impact of the Phased 
Adaptive Approach on shipbuilding requirements is ongoing, but it is 
unlikely to require additional ships be built to support Ballistic 
Missile Defense (BMD). With 80 Aegis ships in the fleet today, we have 
outfitted 19 with a BMD capability and have programmed funding to 
convert up to 27 total. Should the need for additional Aegis BMD assets 
be determined, some additional existing ships could be upgraded with 
BMD capabilities.

    Senator McCain. We're certainly giving them additional 
missions.
    General Cartwright. Yes, sir.
    Senator McCain. I thank you, Mr. Chairman.
    I thank the witnesses.
    Chairman Levin. Thank you, Senator McCain.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Good morning, Secretary Flournoy, General Cartwright, 
General O'Reilly. Based on previous conversations that I've 
been privileged to have with the three of you and based on a 
sense of the Senate amendment that Senator Sessions and I 
presented to the Senate that was adopted on our defense 
authorization bill just 2 months ago in July, I would guess 
that you will not be surprised to hear that I am disappointed 
by the administration's decision to scrap the Polish-Czech 
ground-based midcourse defense and go to this new system.
    I am disappointed and frankly troubled because I believe 
that it opens a much greater risk of a period of time during 
which we, the United States, will not have an adequate defense 
against an ICBM, long-range missile, fired, launched, from Iran 
against the United States. That's serious stuff.
    I understand every strategy that one adopts has risks, but 
to me in making this judgment to change direction based on the 
intelligence, which I'll get to in a minute, to give a somewhat 
greater protection than the Polish-Czech system to our allies 
in Europe and the Middle East, we are giving less protection to 
the continental United States if we are targeted by an Iranian 
long-range ballistic missile.
    Let me come back and just explain why I get to this point. 
What's the Iranian threat? I understand the intelligence that 
you've described. I was going to quote General Maples and 
General Craddock earlier this year talking about their concerns 
about an ICBM program development by the Iranians. I want to 
take a look at some of the intelligence that you base this on. 
I'm going to ask for a briefing on it.
    But here's my concern. If we now have reached, based on an 
updated threat assessment, the conclusion that the short- and 
medium-range missile programs, ballistic missile programs of 
Iran, are further developed than we thought, to me that 
suggests even more likelihood that their ICBM program may break 
out sooner than we currently estimate, which is 2015, and face 
the U.S. with a threat.
    There was a Congressional Budget Office (CBO) report which 
I know I've discussed with you before, which had a big effect 
on me. It just came out in February of this year, and it had 
two maps. I have it too small here, but one basically shows the 
protection that the silo-based GBIs in Poland would give to the 
United States. It covers the entire United States. What's the 
significance of this? Some people call it redundant. 
``Redundant'' is a word that may to some people mean 
unnecessary. We properly build redundancy into our planes, our 
helicopters, our ships, our tanks. Why? Because if one system 
fails we want to make sure that there's a backup system to 
protect us.
    We're talking here about the potential of a ballistic 
missile attack on the United States of America. Fortunately, we 
have the two sites in California and Alaska. But the GBI in 
Poland gave us what I believe is our desired, our best strategy 
here, which is the so-called shoot, look, and shoot option. A 
missile is launched from Iran, we have a first shot from Poland 
as it's ascending. If we miss it, we have a second shot from 
California and Alaska.
    With the alternative that you're proposing here, most of 
the United States west of the Mississippi only has protection 
from those two sites in California and Alaska. They don't have 
that first shot at that incoming missile from the Polish site. 
Now, I know you've said in the proposal you've made that the 
SM-3 Block IIA variant will be expected to be ready in 2018 and 
it will increase the defensive capability to include long-range 
missile threats to the United States. SM-3 Block IIB hopefully 
will be ready by 2020, will provide a significant defense 
against the ICBM threat.
    But here's my concern. The GBI is built, the ones that 
we're going to put in Poland. It's ready to be tested. 
Something we may want to deal with on the floor when the 
defense appropriations bill comes up, they've taken a lot of 
the money out for the testing of those GBIs.
    Incidentally, they were supposed to be ready in 2015.
    I think they still can be ready in 2015 at the Polish-Czech 
sites if we give it adequate money. What's holding it up is not 
the technology developments; it's Congress holding back on 
money.
    So the GBI we're going to put in Poland is done. It just is 
ready to be tested. Those two other systems that are part of 
the new proposal, which would give us the redundant protection 
of the United States against an ICBM from Iran, the SM-3 Block 
IIA and Block IIB--I may be overstating it by saying they're 
paper missiles, but they're in an early development stage. 
They're nowhere near where the GBI is. So that's why I am so 
concerned about the impact of this decision on the protection 
of the United States from an Iranian ICBM.
    I suppose one question I'd ask, and I think if folks were 
here from the previous administration they might say, although 
maybe you'd quibble, or maybe even I would quibble a little 
bit, that their program was to do both of these things, their 
program was to develop systems to protect Europe and the Middle 
East from the short- and medium-range missiles, but also with 
the Polish-Czech system to protect the continental United 
States from a long-range missile shorter.
    So I guess I had a lot to say, so I used most of my 
question time. But why not do both? Why not accept your 
proposal for the improved defense of Europe and the Middle East 
from the short- and medium-range missiles from Iran and 
continue the Polish-Czech system, which provides the redundant, 
but I think all of us would like to feel that we have two shots 
at a missile coming toward the United States from Iran, rather 
than putting all our hopes in one.
    General Cartwright?
    General Cartwright. Yes, sir. Much of what you say was in 
the calculus of at least my perspective and the Chiefs as we 
worked our way through this. I'll defer to General O'Reilly, 
but the addition of the ten GBIs in Poland from a mathematical 
standpoint--everybody worries about the ambiguity of that, but 
the difference in probability of success was somewhere between 
a .92 as it stands and using the interceptors from the United 
States. Adding the interceptors from Poland got us up maybe as 
high as .96, but probably in the .95, .94 area. That's a major 
investment.
    What it did not do was twofold, what worries us the most. 
The first is----
    Chairman Levin. I'm not sure what you mean. You say it 
added very little, is that the point?
    General Cartwright. Yes, sir. In probability of success of 
the engagement, it added very little.
    Senator Lieberman. Very little to the defense of the United 
States against a long-range missile?
    General Cartwright. To the defense of the United States 
against an ICBM threat from Iran.
    Senator Lieberman. I'm surprised to hear that. That's not 
what the CBO stated.
    General Cartwright. I'll defer to General O'Reilly to go 
through the data.
    The two things that were most troubling for us was the 
potential for building more than three to five of these 
missiles, ICBMs, by Iran, that we would need to have scale and 
be able to address at an affordable price a large number of 
missiles. Now, maybe that's ten. I don't know what they're 
going to do.
    You referred to the last administration, and the second 
piece that was very compelling to us was that in the discussion 
of a boost, midcourse, and terminal. We now have a terminal. 
The GBIs give us a midcourse. We have no boost, no credible 
boost capability. What this development program does--and I 
agree with you, it is more than paper, but in that class--it 
gives us the potential to get at the boost phase, which is by 
all accounts and all analysis the most effective way to take on 
the threat. The threat is most vulnerable as it is ascending. 
It can't defend itself, it can't maneuver. It is very ballistic 
at that stage. If we can get it at that stage, we can thin out 
the threat substantially, if not eliminate it.
    That was the most compelling discussion about the 
technology to be that weighed in our decision process, sir. So 
I don't disagree with you and redundancy is something that 
we're looking for. We went with the redundancy of getting all 
three phases of flight as a balancing activity that was 
available to us now, rather than putting all of our eggs into 
the midcourse, very expensive, very sophisticated intercepts.
    I take your criticism.
    Senator Lieberman. I appreciate what you've said.
    My time is up. I just want to say that my hope would have 
been, of course I'd like to see us develop a boost phase 
capability to knock down a missile, but the consequences of an 
Iranian long-range ballistic missile attack on the United 
States are catastrophic. We're just a day after Ahmadinejad 
speaks to the United Nations with the most poisonous, primitive 
attacks on the United States and Israel. The United States is 
what we're talking about and really the west. I would have 
preferred to see us go with parts of the new system, with the 
whole new system, and continue the Polish-Czech development, 
because that would have given us the midcourse, shoot-look-
shoot, and an investment in a capacity we'd like, we really 
need to have, which is the boost phase as well.
    We'll continue the discussion. My time is up. Thank you.
    Ms. Flournoy. May I add a response? Is that okay, sir?
    Chairman Levin. Yes. I think you're entitled.
    Ms. Flournoy. Thank you.
    I just wanted to say that our boss, Secretary Gates, as a 
former Director of Central Intelligence is very aware of how we 
can be wrong in our intelligence estimates. He's also the 
Secretary that signed the program of record. So as I watched 
him go through this decision----
    Chairman Levin. What does that mean, ``program of record''?
    Ms. Flournoy. Meaning he is the person who put forward the 
previous plan in the previous administration.
    So as I watched him go through this decisionmaking process, 
he asked a lot of the same questions that you've raised. In 
order to support the new system, he had to be convinced of a 
couple things: first, that we could still defend the U.S. 
Homeland should an Iranian ballistic ICBM threat develop 
earlier than what was being predicted; second, that we would 
have options, technical options, should the development of the 
later blocks, Block II of SM-3 missile, either fail or be 
delayed.
    He raised those specific issues. I think in designing the 
new architecture, by putting in the TPY-2 radar early that 
closes the notch in our coverage for the homeland and gives you 
that extra ability to see what's coming at you and makes the 
GBIs in the United States more effective. Second, we are going 
to continue the development of the two-stage GBI as a 
technological hedge.
    So he asked exactly the questions that you're asking, 
Senator. But he, working through the details, became convinced 
that this system could and would adequately protect, fully 
protect, the U.S. Homeland even as we move towards a more cost-
effective way to protect Europe over time as well.
    Senator Lieberman. I have the greatest respect for 
Secretary Gates. I'm reassured that he asked the same 
questions. But I'm not reassured by the answers, as he 
apparently was.
    Chairman Levin. Senator Lieberman's comment about the 
poisonous rhetoric of Ahmadinejad I think would be shared by 
probably every member of this committee. Poisonous indeed they 
were, and I think we all recognize what the Iranian threat is 
and want to deal with it.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    I guess I would agree with the last two questioners, 
particularly when Senator McCain said this thing's done anyway. 
You guys have made up your mind. We'll do all we can through 
our process to change that.
    I just want to get in the record a couple of things that I 
observe. I coincidentally happened to be in Poland when 
President Kaczynski made the statement, when he said that he 
believes the United States will honor the agreement to build 
the missile defense in this country. ``A deal was signed''--I'm 
quoting now--``and I think that, regardless of which 
administration is in power in the United States, agreements are 
going to be honored.''
    He asked me the question, are these agreements going to be 
honored? I said yes, these agreements are going to be honored; 
America doesn't do this.
    In addition to the statements that were entered into the 
record by Senator McCain, the betrayal, no radar, Russia won, 
one of them he overlooked was in the second largest newspapers: 
``An ally we rely on has betrayed us in exchange for its own 
better relations with Russia.''
    Just one comment. We were talking about the significance of 
the boost phase and yet this budget virtually kills one of the 
things we were working on, the kinetic energy interceptor, and 
then the second test of the Airborne Laser.
    What I want to do is, when we talk about the fact that 
we're somehow going to do a better job for Western Europe and 
Eastern Europe by accelerating our activity and becoming more 
aggressive with the SM-3 and the THAAD, it's interesting 
because this budget calls for the termination or at least no 
more THAADs and cuts the SM-3s down from 24 to 18.
    Just real quickly, for a yes or no question: Are you going 
to make an amended request in terms of the THAAD and the SM-3 
in light of this new development that apparently happened since 
the budget request?
    General O'Reilly. No, sir, we're not, and the reason----
    Senator Inhofe. Okay. Thank you very much.
    Chairman Levin. Well, could he explain it?
    General O'Reilly. The reason is the policy, the funding 
policy up until now, sir, was we would buy missiles in pieces. 
That's an exception to the rule for the Department of Defense 
and MDA was allowed to do that. Starting this year, we no 
longer have that option, and when we fund we're actually 
funding $400 million more for SM-3 and THAAD missiles this year 
than before, because we're buying those missiles in their 
totality.
    So we are spending $400 million more than previously on 
those interceptors and we're buying them in full-up, full 
production price that we pay for.
    Senator Inhofe. Okay, that's fine. I heard that before and 
I don't agree with that.
    Of the people at this table up here, the one I think should 
be most concerned would be the Senator from Maine, because as I 
look at the overlay map that Senator Lieberman was using, but 
mine's a little bit larger, as to what our capability, what our 
protection is right now with what we have in Alaska and 
California, it even cuts Maine in half up there. I want you to 
know that, I say to Senator Collins. You should be concerned.
    But it shows that the capability is from the western United 
States. So obviously something coming from the west, that gives 
us a good capability. Something from the east, obviously it 
does not give us the capability that makes us comfortable. 
During the Bush administration--and all of you were around at 
that time--they emphasized, this is not just for Europe; this 
is for a potential ICBM that comes to the United States.
    Now, with that in mind, I want to get a couple of things in 
the record just to show what is happening over there. I've said 
this several times up here and there's not time to give the 
whole story, but when we were talking about the Taepodong 1 
capability that we thought was developing in North Korea, our 
intelligence estimate said on August 24, 1998, that it would be 
another couple or 3 years, and they fired one 7 days later, on 
August 31.
    On April 5, 2009, North Korea launched a three-stage 
Taepodong 2. The current range of North Korea's missiles is 
five times further than it was in 1990. North Korea has sold 
ballistic missiles to several countries, and technology. I 
don't think there's anyone in this room on either side of this 
table who doesn't believe that anything that North Korea has 
can very easily end up in Iran.
    This is very significant--a satellite, three-stage liquid-
fueled rocket demonstration, the same propulsion that it takes 
to send up a satellite could be used, as you have said and I 
think someone else, I think Senator McCain, already quoted you, 
General Cartwright, when you stated on February 10 that that 
same technology could be used. So we all understand that.
    Now, this is what I'm getting around to. The Department of 
Defense in the 2009 MDA, they said: ``Iran continues to develop 
ballistic missile capability of striking Israel and Central 
Europe and could have the ICBM capability of reaching the 
United States in 2015.'' I think several of us have said that 
now, so let's assume that that's a fact.
    Let's assume also that the SM-3 IIB would have the same 
capability as a GBI would have had as originally designed. I 
don't think anyone's going to disagree with those two things. 
So the question to me is very similar to the question, but I'm 
asking it a little different way, of Senator Lieberman. That 
is, if we were to have stayed with the GBI--it was going to be 
2013, we all understand that. Well this is what the estimates 
say. This was put together and I'm always gone on that 
assumption.
    Then they said, well, maybe, since we slipped a year, it 
could be 2015. So let's just say 2015, or if you want to go all 
the way to 2017.
    Now, shift over to the SM-3 IIB. I think we discussed and I 
think it was in the written testimony of one of the three of 
you because I saw it, that that would be 2020, and that was 
repeated by Senator Lieberman. So regardless, if you put those 
three things together, if they have that capability by 2015 and 
we could have had the capability of knocking it down by that 
time or even a year later, no matter how you match these up 
it's another 3 years of exposure that we would have as a result 
of shifting from the GBI to potentially the SM-3 IIB.
    Where am I wrong?
    General O'Reilly. First of all, sir, it's always been that 
once we start construction it's 5 years to build the missile 
field. That's been consistent for the last several years. It's 
when that start point will occur has always been what has moved 
those dates 4\1/2\ years for the European midcourse radar.
    For the IIB, it is not a brand-new development. I was 
responsible for the development of the GBI and the THAAD and 
the Patriot and now I'm responsible for the SM-3. Looking at 
that, the SM-3 is more of an evolutionary technical growth, 
built on existing components and built on more mature models 
than what we've had before. We also, as we testified earlier 
this year, have a much more extensive test program in order to 
validate this. Our decision process previously was we were 
deploying the GBIs, but, as we stated earlier, most of the 
testing, including all of the testing against ICBMs, remains to 
occur.
    In this approach, those timelines were extended because we 
were laying out a program that tests first. Then decisions are 
made based on those tests, including operational assessments: 
Should we go forward? Yes, sir, that does extend time, and 
that's when we arrived at the 2020 timeframe.
    Could it occur earlier? Yes, it could, but we have laid in 
that significant amount of testing.
    Senator Inhofe. Mr. Chairman, I know my time has expired, 
but, as Senator Lieberman said, when we're looking at the GBI 
capability, it's ready to test, ready to go. I still believe 
that as a result of this that we are exposing ourselves in the 
eastern part for probably 3 years. Any way you line up these 
numbers, I think it comes to that conclusion.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you very much, Mr. Chairman.
    General Cartwright, in countering potential threats like 
the potential threat from Iran, do we solely rely on our anti-
missile defense?
    General Cartwright. No, sir. There is a robust program by 
Central Command (CENTCOM) to address them across a myriad of 
different capabilities. So missile defense is but one element. 
There is an offensive force element, obviously, and a credible 
one, that is represented by CENTCOM. There are also activities 
associated with counter-proliferation, nonproliferation, 
consequence management, both here in the United States and 
overseas, to protect our forces and to protect populations.
    So we try to go at this as holistically as possible. This 
is but one element of that deterrent strategy.
    Senator Reed. It's your professional judgment that this 
approach strengthens that holistic approach to the defense of 
the Nation and also our forces in the field against missiles?
    General Cartwright. It does from a technical standpoint. I 
believe that it also does from a standpoint of what most 
warfighters would talk to, which is in the eyes of your enemy 
have you presented a credible case that would potentially 
influence their decision process. When you bring all your 
allies in line and you're able to speak with one voice and they 
can see that that is mounting against them, that has to have an 
influence on their decision calculus.
    Senator Reed. Let me follow up with another question. 
Unfortunately, the proliferation of nuclear weapons, as has 
been suggested in some of the questions, is a current problem. 
If for example a threat would either shift away from Iran or 
another threat would arise, this system has I think inherently 
more flexibility because of its sea-based and its mobile 
sensors to be shifted onto that threat; is that correct?
    General Cartwright. That is correct, sir. That is why we 
retain the mobile. It is probably the most expensive, but it 
gives us the greatest opportunity to hedge against an enemy who 
obviously has a vote in how they represent the threat. We're 
not exactly consistent on always being able to predict who 
we're going to fight with next.
    Senator Reed. Right. It's been raised here and it's a very, 
very sobering and legitimate point--through proliferation of a 
Taepodong to a country that now is not on our list, that site 
in Poland might be of absolutely no use to us.
    General Cartwright. That's true, sir.
    Senator Reed. General O'Reilly, can you just give us an 
idea of the tactical risks associated with bringing on the SM-3 
Block IIA? You described it's building on a proven product, not 
a completely new system, but what are the technical risks you 
will have to look for?
    General O'Reilly. Sir, we are applying the same type of 
seeker technology that we are developing for the IIB, and we've 
actually tested it on aircraft. We've observed missile 
launches. We have a very well characterized design for that, 
for the IB. That is also, that design is going to be carried 
forward for the IIA. We might say, it's a very good design and 
it also has applicability, if not exact use, for a IIB.
    The second is the booster itself. It's a 21-inch booster. 
The GBI for reference is a 25-ton missile. The SM-3 IA is a 1-
ton missile, 25 times smaller. The IIB is 2 tons, twice as big. 
But that technology, the way we steer it, the way we operate 
it, gives it aerodynamic control, is a direct scale from what 
we are doing with the current missile.
    We understand the flight environments. So we're able to 
qualify the components on the ground before we fly them.
    Senator Reed. Are you reasonably confident that you can 
overcome any technical issues and come in on time, as well as 
on target, we hope?
    General O'Reilly. Sir, absolutely, because the timelines we 
have laid out take into account having problems and having 
failed flight tests and recovering from those problems. So this 
is not a very aggressive timeline, given where we are in the 
development of this.
    Senator Reed. Let me ask another question. If intelligence 
developed that would suggest the threat period is moving 
forward, you have the opportunity to accelerate the program?
    General O'Reilly. Yes, sir. In fact, just to give an idea 
of the maturity of these technologies, our first time we fly 
the IB next year we will actually intercept. Typically, you 
have four or five flights, but we understand this technology to 
the point we don't see the benefit there. We could always go 
back to a contingency deployment, where the Chairman of the 
Joint Chiefs and the Secretary of Defense will tell me to 
deploy a capability that hasn't been fully characterized. We do 
that today in Japan and Israel and we could do that here.
    Senator Reed. Just a final question, General Cartwright. It 
goes to the number of ships that the Navy will need to carry 
out this strategy. You've indicated you're in the process of 
converting Aegis destroyers or destroyers----
    General Cartwright. The Spruance class. There are cruisers 
and destroyers there that are capable of this.
    Senator Reed. You're doing it. Part of that also would 
involve forward basing, I presume?
    General Cartwright. Yes, sir. What we're working on right 
now is the early stages, what we were calling phase one, is 
mostly associated with ship-based capability. Then we move to 
land-based because that's infinitely cheaper and doesn't tie 
down a multi-purpose ship to one function. But we always retain 
the capability to surge.
    What we're thinking right now--and this is early stage 
concept of operations--is that we would like to see the ability 
to have two ships per station for three stations, so a total of 
six. That's generally the way we operate in Japan versus North 
Korea. That allows one off station, one on station. A magazine 
on any one of these ships is 100, plus or minus, the capability 
of 100, plus or minus, missiles.
    Senator Reed. I know, I think, that Spain and Norway, as 
well as South Korea, Australia, and Japan, have Aegis systems, 
and you're actively talking to them to augment our efforts?
    General Cartwright. That'll be part of the way forward over 
the next year, is to sit down and talk. The burden-sharing 
opportunities here are significant. Many countries have 
Patriot, as I said. I would ask General O'Reilly also--the 
financial contributions of countries like Japan towards our R&D 
have been significant.
    General O'Reilly. Yes, sir. In the case of the Block IIA, 
they have invested $1 billion.
    Senator Reed. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Reed.
    Senator LeMieux.
    Senator LeMieux. Thank you, Mr. Chairman. Thank you for 
your warm welcome to the committee here today, and I will 
strive to work in a bipartisan way, but also, as Senator McCain 
said, be spirited when appropriate.
    I also want to thank Senator McConnell and my Republican 
colleagues for the opportunity to serve on this committee, and 
say good morning to Secretary Flournoy and General Cartwright 
and General O'Reilly. I haven't had a chance to meet you yet, 
but I look forward to working with you.
    The first thing that I'd like to discuss this morning--and 
I'm very impressed with your testimony--is to talk about when 
the change of intelligence occurred and when the new technology 
became available that would dictate a change in policy. In 
preparing for today's hearing, I saw the comments from 
Secretary Gates originally recommending this ground-based 
missile defense system to the prior administration back in 
December 2006, and I have comments that are here before me 
which I'd like to read to you from Secretary Gates when he 
appeared before this committee in January 2009. He was asked by 
Senator Wicker: ``Is it your view that in any event it's 
essential that the United States continue its current plan for 
missile defense deployment in Eastern Europe?'' The Secretary 
said: Well, as I said earlier, we have not had the opportunity 
to pursue this in the new administration and discuss the 
administration's policy on it. I will say this: All of the NATO 
heads of government unanimously last April in Bucharest 
endorsed the importance of a NATO-wide European missile defense 
capability. So this is a commitment that has been made by the 
alliance and so I think we at least need to take it very 
seriously.''
    There was also discussion in that same meeting from the 
Senator from Alaska, Senator Begich, concerning the ground-
based missile defense system that's placed in Alaska. Secretary 
Gates, in responding specifically to Alaska, added that ``I 
think having a layered defense such as we are building, that 
includes the GBIs, is very important.''
    So my first question to you goes to, when did this new 
intelligence occur? Secretary Flournoy, you said in your 
opening statement that the Intelligence Community now assesses 
that the threat from Iran's short- and medium-based ballistic 
missiles is developing more rapidly and that the longer range 
has been slower to develop than previously estimated. So if you 
could answer my questions on when did we have this change in 
intelligence, and then also we can maybe speak to when did the 
technology improve so much that you would have this change in 
policy?
    Ms. Flournoy. Senator, thank you for the question. I want 
to be careful since we're in open session, but there have been 
three national intelligence estimates to my knowledge on this 
issue. There was one in 2001, one in 2006 that informed the 
development of the program of record, the old approach, and 
then one that was done, that was completed in the spring, after 
Secretary Gates testified, of this year, in 2009.
    It's drawing from that most recent estimate, that's where 
we're basing our judgment. I am sure that our colleagues from 
the Office of the Director of National Intelligence would be 
happy to come brief members on that in detail in a closed 
session.
    But I would just say that, on Secretary Gates's comments 
about NATO's endorsement of a BMD system and the importance of 
GBIs, I think he would not have agreed--since he is the one who 
signed the program of record, who presented it to our NATO 
allies, he would not have agreed to this new architecture and 
in fact championed it if he were not convinced that we are not 
breaking, we are strengthening, our commitment to the defense 
of our allies, and that the new system offers both the coverage 
that we need for homeland defense and better and faster 
coverage that we need of our forces and allies in Europe.
    Senator LeMieux. In terms of technology, the two parts of 
your assessment of why to have the policy change is: one, this 
change of intelligence, which I understand I guess from your 
comment is this year, spring 2009; and then also there seems to 
be this convergence of a technology change that happens. When 
does that occur, that we now believe that this sea-based system 
is better than the ground-based system?
    General O'Reilly. Sir, first of all, we are proposing both 
ground and sea-based in this capability.
    But in 2006, and before, when this design was developed, we 
had only flown one GBI, not in a test. We had very few actual 
flight tests. Since then we've had I believe it's 19 flights, 
17 have been successful intercepts. We had not deployed our 
most powerful radars and our sensors. We did not demonstrate 
until a few months ago, until April of this year, the great 
capability, far greater than was estimated, for unattended 
aerial vehicles.
    So we have in fact executed the program, the technology 
program. But we learned from it, and as we learned from it, 
number one, it became evident we did not have to rely on the 
assumptions that we were making in 2006 that you had to have 
very large missiles, they had to be at a fixed site, and you 
had to have large radars in order to track, precisely track, 
complex clusters that are associated with a missile in flight.
    So based on what we have learned, a tremendous amount over 
the last 4 years, when you relook at what is a more survivable 
network of missile defense capability, it became evident to us 
that this was in fact not only more survivable, gave you 
greater capability, but what really surprised us back then, 
because I was part of that, was looking at the number of 
threats we'd have to handle simultaneously.
    So what we have observed is the fact that very large 
numbers of missiles can be simultaneously launched. As I said 
in my earlier testimony this year, it is my primary concern. So 
by intercepting early, we're going after the countermeasures, 
which we have always been worried about. But the amount of raid 
size was what drove us to a different type of architecture to 
handle and grow and respond to those raid sizes.
    Senator LeMieux. When did you come to that conclusion, 
General?
    General O'Reilly. Sir, I've been continuously working this 
since the early part of this decade. It became evident as we 
completed each test, this became more evident to us, our post-
flight reconstructions of what's occurred. So I don't believe 
that it's a well characterized representation that there was 
some sudden decision. I would say that we executed the 
technical program that was laid out over the last 5 years and 
we were continually updating our assessments as we went through 
that.
    Senator LeMieux. I'm just looking for a timeframe, General.
    My time has expired. I just wanted to make the point and 
understand that when the intelligence change happened and when 
the technology change happened and when you had come to those 
decisions that would lead to this policy shift and when 
Congress was notified based upon those decisions. So I don't 
have any further time to ask those questions, but I think the 
point that I'm trying to make is that I believe, in echoing 
Senator McCain, that there was a need for this body to know 
that there was a significant change in policy. It looks like 
you made those decisions some time earlier this year without 
this body knowing.
    But I appreciate your comments today and thank you very 
much.
    Chairman Levin. Thank you, Senator LeMieux.
    Senator Webb.
    Senator Webb. Mr. Chairman, Senator McCaskill has a 
commitment, so I would switch places with her here.
    Chairman Levin. Senator McCaskill.
    Senator McCaskill. It's coming at a price. Just kidding.
    I think the way this was rolled out is problematic. I think 
it's a problem that this appears to have appeared to come out 
of whole cloth all of a sudden. The fact that I think that 
Czech and Poland were notified, what, at midnight, and we were 
not notified at all that this was coming--I think you get 
everyone agitated by the way this was rolled out. I would just 
say that as an opening comment. I think it was not done as well 
as it should have been done for this kind of major shift in our 
missile defense policy in this country.
    I noticed in the 2010 budget you have asked for a cut of 
$1.2 billion in missile defense. But yet clearly by scrapping 
this I know you're talking about--I know Secretary Gates talked 
about this being more economical. Obviously, General O'Reilly, 
you know the kind of record we've had on bloated costs as it's 
related to the missile defense program.
    I think the SM-3 costs around $65 million apiece. I'm 
trying to understand and reconcile, if you were working this 
over the last few months, how do you reconcile the request for 
cuts to the missile defense program if we are going to be 
adding SM-3s? How is the money going to work out here?
    General O'Reilly. Ma'am, first of all, our cost estimate is 
around $10 million and is what we're paying today for SM-3s, 
versus $65 million. Now, a GBI is, the latest estimate, is $70 
million, which is closer to the cost you have. But the SM-3 is 
a much smaller missile. That class of missile, it's very 
reasonable that that's the right cost. That's very similar to a 
THAAD cost.
    Senator McCaskill. What were you envisioning cutting with 
the $1.2 billion? When that figure was submitted, where was 
that money supposed to be coming from? The GBIs or the SM-3s?
    General O'Reilly. No. The reduction in the cost consists of 
three major parts. First of all was the termination of the 
Kinetic Energy Interceptor program. Second was the termination 
of the Multiple Kill Vehicle program. Third, the largest, was 
funding which we were not able to propose that we had 
previously envisioned for the European site, due to the 
congressional restrictions on using that money. That covered 
actually more than the $1.2 billion.
    There was additional funding added by Secretary Gates again 
to address, to procure more SM-3s and more THAADs.
    Senator McCaskill. Okay. Let me turn to Russia for just a 
minute. This I think, whether it is intended or unintended, 
clearly pleases Russia. As usual, we have no assurances that 
they're going to cooperate any more or do anything in addition 
in terms of our policies towards Iran, Afghanistan, or NATO.
    I never really understood Russia's concerns as to what we 
were doing there, and obviously we now have projection as to 
Russia conducting operations and missions off the east coast. 
We get no substantive offers from Russia in terms of dealing 
with the Iranian threat and the ballistic missile threat from 
Iran. They have a dominant foothold in Central Asia and in many 
ways we have to rely on their approval to get the stuff for our 
troops coming through the northern distribution network into 
Afghanistan.
    Have we gotten anything from Russia for this?
    Ms. Flournoy. We did not seek anything from Russia for 
this. This was not about Russia. Our going through the BMD 
review, this was about how do we ensure that we can deal with 
Iranian missile threats to our forces and allies in Europe and 
also to our Homeland. So this has never been about that. In 
fact, we've been very clear, for example in the Strategic Arms 
Reduction Treaty negotiations, that our negotiations on 
offensive forces are not connected to anything we're doing on 
missile defense.
    We haven't made that linkage and so we have not sought 
that. I think there is a broader question about how reset in 
the relationship is going, whether that's possible, whether 
we're seeing reciprocity on the other side. But that's a 
different conversation.
    Senator McCaskill. What have the Israelis expressed to you 
about the policy change?
    Ms. Flournoy. I have not had any specific conversations 
with the Israelis about this. But I would say that--and I would 
just underscore General Cartwright's point--that the kind of 
BMDs that they're building will be able to be very integrated 
with the architecture that we're envisioning as well.
    Senator McCaskill. Were they informed of this policy change 
contemporaneously with Congress or with Czech and Poland? When 
were they informed of the policy change?
    Ms. Flournoy. I know that it was discussed last week when 
Minister Barak was here to meet with Secretary Gates. I do not 
know if they had any prior consultation before that.
    Senator McCaskill. Are we reassuring the emerging 
democracies in the Ukraines and the Georgias and the Polands of 
the world that we're really committed? I just worry about their 
perceptions of this move. Do you have any comments about the 
emerging democracies and what this says to them about our 
commitments?
    Ms. Flournoy. Again, I think when we went to the North 
Atlantic Council one of the things that became clear as the 
permanent representatives got beyond the erroneous press 
reports and started digesting what we were actually presenting 
to them, the reason we got such a positive reaction is they saw 
this as a strengthening of U.S. Article 5 commitment to the 
defense of Europe and to extended deterrence.
    So I think that that has been the intention. That is in 
fact the reality of what's in this program. I would hope that 
the others on the periphery of Europe would see that same 
signal.
    Senator McCaskill. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCaskill.
    I believe Senator Collins is next.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    General Cartwright and General O'Reilly, two of my 
colleagues have brought up what I believe to be the key issue 
for us. That is, does this new strategy provide less protection 
to the continental United States? Now, I will tell you that it 
was never clear to me that the third site was primarily 
intended to strengthen the protection of the United States. I 
was under the impression that the two sites in California and 
Alaska were adequate to provide protection to the entire 
continental United States from an ICBM attack launched by 
either the Iranians or the Koreans.
    But I must say that the map given to me this morning by 
Senator Inhofe does cause me to question the assumption under 
which I was operating and the lens through which I was viewing 
this new strategy, because, as he has pointed out, it just 
barely covers most of my State of Maine. So could you address 
this issue, which is, after all, a very important issue to this 
committee, of whether or not the two sites that we have now in 
California and Alaska provide sufficient coverage to the 
continental United States? General O'Reilly?
    General O'Reilly. Yes, ma'am. Our analysis indicates we do 
have coverage. I've testified and my predecessors have 
testified to that. I will have to look at and understand the 
details of this new analysis that I'm hearing about today that 
we don't.
    Senator Collins. General Cartwright?
    General Cartwright. I'll let us go back through the 
analysis, because we haven't seen the chart. But I would also 
say that as we move forward on the SM-3 Block II development, 
those ships certainly can protect our deployed forces and 
friends and allies overseas. They can also come home. They live 
here, and they can be moved to areas that we think have some 
sort of increased vulnerability in the future, for which we 
don't know why today, but could emerge. So part of what we're 
trying to understand here as we move forward is how do we 
accommodate something that, either through an analytic process, 
through a test process, or through a new threat, somehow 
disadvantages any part of the United States, and how can we 
ensure that that's taken care of?
    We talked a little earlier about defending Hawaii and the 
challenges of Hawaii. The same applies as we look at the rest 
of the United States, whether it be Alaska or Maine or down in 
the southern end of Texas and Florida.
    Senator Collins. Thank you. I would ask that you get back 
to the committee with an analysis of the CBO study since the 
maps do give me pause.
    [The information referred to follows:]

    Our analysis indicate that Maine is fully protected against both 
liquid- and solid-fueled Intercontinental Ballistic Missiles 
originating in Iran.

    Senator Collins. Madam Secretary, you've said three times 
this morning: This is not about Russia. You've literally said 
that three times. Are you saying then that you do not expect 
that this new approach will enhance Russia's willingness to 
cooperate to deter Iran? I had thought that would be an 
advantage of this new approach, but you've said very 
emphatically three times this morning: This is not about 
Russia; this has nothing to do with Russia; we haven't asked 
anything of Russia. I find that very troubling.
    Ms. Flournoy. Senator, we would certainly welcome both 
Russia's new view of our missile defense efforts. We would 
welcome their willingness to cooperate in things like the 
radars and sharing radar data and so forth. We would welcome 
strengthened cooperation on things like on Iran and 
proliferation writ large.
    What I was trying to communicate is that those things that 
we would welcome did not drive the substance of this decision. 
That's what I was trying to say.
    Senator Collins. But do you in fact expect that this new 
approach will encourage the Russians to be more cooperative 
with us in deterring the Iranians?
    Ms. Flournoy. We have never believed that our missile 
defenses posed a threat to the Russians.
    Senator Collins. No one who has looked at it believes that.
    Ms. Flournoy. No, I know. But for whatever reason, they 
did. So if they now look at this, this architecture, new 
architecture, and finally understand this doesn't pose a threat 
to you, and that opens the door for further cooperation, we 
would welcome that.
    Senator Collins. Finally, as a Senator who participated in 
the trip with the chairman this spring, I have to tell you 
that, while I think there is merit in the decision the 
administration has reached, assuming we can clear up this map, 
I am appalled at the poor communication and consultation with 
our allies. That clearly could have been done in a far better 
way.
    When I look at the public comments by the Polish officials, 
it seems evident to me that what they did is first give their 
real impression of alarm and shock and then, when they realized 
that this was the decision and they were going to have to live 
with it, they then modified their public comments to try to 
accept the reality. I'm just at a loss why there wouldn't have 
been better consultation with two allies whom we value so 
greatly.
    Ms. Flournoy. Senator, if I could, we had begun 
consultations in the spring. We certainly would have liked to 
have had more time for consultations and for the rollout. One 
of the things that happened is as we got more detailed in our 
consultations, things started to leak. There started to be a 
lot of erroneous discussion in the press. I think the 
decisionmaking was proceeding on an analytic basis, that we 
were getting ready for a decision. But in terms of the rollout, 
it made us try to get the decision and the facts out sooner 
rather than later, so that we could correct the record on what 
this decision actually involved and what it was about and why 
it was being made.
    So we too would have preferred a longer period for 
consultation and rollout. But leaks and speculation in the 
press sort of forced us to go sooner to set the record 
straight.
    Senator Collins. General, did you want to add to that?
    General Cartwright. I think the Secretary has it about 
right. I would love to have had a lot more time. We believed 
that we were on a path both analytically and politically to 
explain alternatives, and we looked through a very broad range 
of alternatives as we've worked through this missile defense 
review. Some of that was taken away by just the fact that the 
information leaked early and then was developed into a position 
that was erroneous from a factual standpoint.
    I think that we have gone back to our allies and we 
continue to go back to our allies, which I would say is another 
positive opportunity where we're dealing with preparing the 
fiscal year 2011 budget. One of the things we wanted to do was 
to give Congress a full year of review of this activity. So in 
other words, this is a budget that the Services are just now 
submitting to the Department, and we will bring up and have 
opportunity with the Hill for a full year of debate about this 
way forward.
    We lost some of that in this rushed, accelerated release. 
But we still are on a path to have a full year of debate about 
the fiscal year 2011 budget and its support of this concept.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Collins.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    As one of five Senators who voted against the original 
proposal to put the systems into Poland and the Czech Republic, 
I think this is just a very important step forward in terms of 
how we approach our National defense and also our international 
relations. The reason that I was opposed to the original 
proposal was due to the cost and the static nature of the 
technology, at the same time that it was widely being viewed as 
provocative of Russia, at a time when the Russians actually, as 
I recall, were offering to cooperate on alternate sites such as 
the site in Azerbaijan; and also that it was not really as 
proposed doing the job that we were expecting it to do in terms 
of the threat from Iran.
    What I'm seeing in this particular proposal is really the 
way things need to be done, and I congratulate all three of 
you. We're putting mobility into a system. We're putting 
maneuverability into a system, so that it can address not 
simply multiple operational threats, but multiple strategic 
threats, at a time when we are really bogged down resources-
wise because of our commitments in places like Iraq and 
Afghanistan. Importantly, it allows the adaptation and the 
innovation of new technologies as these concepts move forward.
    I quite frankly would hope we can start thinking in this 
way when it comes to the disposition of troops in places like 
Afghanistan, which worry me very much, that we're going to be 
bogged down, local defense, when we are facing an enemy that is 
highly mobile and loves to take advantage of the fact that we 
get in these static positions.
    So conceptually, and strategically, I think this is a very 
strong step forward. I think it's very important for us as we 
consider this to consider also the letter that General Jones 
sent. Mr. Chairman, I had to step out of this hearing. I'm not 
sure if it was mentioned in terms of the hearing, but General 
Jones, the National Security Adviser, former Commandant of the 
Marine Corps, former Commander of NATO, under his own signature 
wrote a very strong letter in support of this, talking about 
how this new architecture will protect Europe sooner, will have 
greater capability, greater survivability, flexibility, be cost 
effective, and will provide an added layer of defense to 
augment the United States. I think that's a pretty strong 
statement.
    General Cartwright, your testimony I think was very 
powerful today in terms of the background that you've had in 
this and the conceptual observations you brought to the table.
    I think this is something that we've been needing. The 
major comment that I would have, Secretary Flournoy, goes to 
the point that you've now heard four or five times, about the 
need to do a better job explaining the linkage, quite frankly, 
to our larger relations with Russia. You've just made the 
point, I think quite well, in terms of the response you gave to 
Senator Collins. I think the message needs to be very clear as 
we're moving forward here that this clearly was not done in 
response to any demand from Russia, but at the same time, in 
the context of overall relations, it's not necessarily a bad 
thing as long as we're acting clearly and solely in the 
National interest of the United States.
    Ms. Flournoy. Senator, I would agree completely.
    Senator Webb. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, and that letter will be made 
part of the record that you made reference to. It has not been 
referred to before and I'm glad you raised it.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Senator Webb. Thank you, Mr. Chairman.
    Chairman Levin. Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, you said the GBI would take 5 years to deploy, 
which I think makes Senator Inhofe's point. The same year that 
we predict Iran will have an ICBM capability that could reach 
the United States is 2015. The SM-3 IIB won't be fielded until 
2020. Doesn't that expose us for that 5-year period between 
2015 and 2020?
    General O'Reilly. Senator, once we're given the approvals 
to begin the construction, yes, sir, it's 5 years. The issue 
we've had is the current restrictions I have require us to go 
through testing that will take us to 2013 before the Secretary 
of Defense is in a position, with the Director of the 
Operational Test and Evaluation Agency, to then certify that 
the ground-based midcourse defense system will work in a 
European scenario.
    So 2013 would be the earliest we can see programmatically 
where we could begin, and that actually takes you to 2018.
    Chairman Levin. Is that for the previous system? It's 
unclear. What are you referring to?
    General O'Reilly. The current program, the GBI's in Europe.
    Chairman Levin. Before the change?
    General O'Reilly. Before the change, yes, sir. I'd clarify.
    Also what is clear is that's pure construction time. We do 
need the approval of the countries, and there are extensive 
implementing agreements also required before you can begin 
that. So we saw the 2017-2018 timeframe as optimistic based on 
the approvals necessary in order to begin.
    Senator Thune. I don't know how much this has been covered 
already. But Secretary Flournoy and General O'Reilly, the new 
approach to European missile defense calls for sea-based 
defenses to be deployed to theater in the 2011 timeframe. But 
the CBO in their report from February of this year found that 
deploying sea-based defenses is the most expensive option. In 
fact, the CBO wrote: ``That system would cost almost twice as 
much as the original European missile defense proposal, a total 
of about $18 billion to $26 billion over 20 years.''
    The CBO study assumed the Department would need to buy 
additional ships to permanently station three Aegis cruisers in 
the region. So how does the new proposal for European missile 
defense meet President Obama's stated goal of having a system 
that's cost effective? You said earlier in your remarks that 
this is the cost effective approach, when CBO says that a 
system like that would cost twice as much compared to the 
system that you're intending to scrap.
    General O'Reilly. Sir, what they were referring to as I 
recall, but I'll go back and verify, was protection of all of 
Europe at one time. In the phased approach, what we're looking 
at is pacing technology and pacing our current capabilities 
with the threat that we know exists today, which is a focus in 
phase one on the southeastern part of Europe that we know is 
threatened today by Iran.
    Their study was looking at today's technology, if you had 
to proliferate it over all of Europe, and that caused a 
significant higher number of ship stations that would be 
required. Also, we are in fact combining the greater range of 
the SM-3 IIA and the IIB with land-basing, which optimizes the 
coverage that you can have of Europe. So as the threat grows we 
would deploy in phases, as we said, and that would 
significantly reduce the costs and extend the coverage that we 
would have from much fewer bases than what they were assuming 
in their study.
    Senator Thune. Do you have that analysis? Does that include 
cost estimates of this proposal relative to the third site? 
Because CBO is the only number that I've seen. I assume in your 
analysis--you say it's more cost effective to do it this way. 
Is that something that's available?
    General O'Reilly. Yes, sir, we do have that. As we were 
going through the BMD review, cost analysis is part of that 
review for these different options.
    Ms. Flournoy. Again, if I could just underscore, the CBO 
and the Institute for Defense Analysis studies both costed out 
a sea-based only architecture, which would be very expensive. 
Once you move the majority of the interceptors onto land, which 
is what we envision doing, the cost effectiveness goes way up. 
It's much less expensive. So the sea-based piece of the 
architecture really plays a role in the initial phases while 
we're developing the land-based sites, and that's just to cover 
the southern part of Europe that's currently under threat.
    Then, as a surge sort of flexibility element, should, under 
a particular contingency, a part of Europe is under threat, or 
a part of the United States is under threat, we can surge sea-
based assets to complement the land-based systems.
    But they really costed out a totally different concept, 
which is different than what we're proposing.
    Senator Thune. The 2010 defense budget request, there was a 
request for funds that would be included to convert six Aegis 
ships to provide missile defense capability. I guess my 
question is what other funds were going to be required to field 
sea-based defenses in accordance with the new European missile 
defense approach?
    General O'Reilly. Sir, as I said in my statement, we are 
asking for the opportunity to utilize fiscal year 2009 funding 
for European defense which has not been released to us because 
of the criteria of the BMD agreements being ratified in both 
Poland and in the Czech Republic and the constraint on testing.
    So if we had access to that funding in fiscal year 2009, 
then we'd have sufficient funding in which to meet the 
timelines, especially the earlier timelines, of developing the 
unmanned aerial vehicles, all the research and development that 
we've referred to, the long-term development, and get it 
started now, as well as the short-term deployments focused on 
2011 and the testing which we are proposing that goes with 
this.
    Senator Thune. Well, Mr. Chairman, I would just echo what 
some of my colleagues previously have said. That is, I think 
this is a real abrupt change which sort of kind of got dropped 
on everybody. Probably the most notable example of that are 
some of our allies in Europe. I think it's interpreted, at 
least there, as the U.S. sort of betraying their interests 
after we'd made commitments, that we're not following through 
and honoring those commitments.
    So I have questions about these cost issues. I have 
questions about coverage issues, some of which were raised 
earlier in Senator Lieberman's discussion and questions. But I 
also have a lot of questions about the perception that this 
creates among people who have been very friendly to us and very 
reliable, and also the issue that's been broached about whether 
or not this was designed to curry some favor with the Russians 
in dealing with the Iranians.
    All that I guess is sort of conjecture. But I certainly 
hope that at the end of the day that these decisions weren't 
predicated on those, that we have good sound criteria that will 
enable us to protect the United States and protect our allies 
and do it in a cost effective way. But many of the concerns 
that have been voiced today are concerns that I share.
    So thank you all very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    When you made reference, General, to constraint on testing, 
you were referring, I believe, to the requirement in the laws 
that there be operational effectiveness shown by testing before 
deployment; is that correct?
    General O'Reilly. Yes, sir, that's exactly right.
    Chairman Levin. That's what you were referring to?
    General O'Reilly. Yes, sir.
    Chairman Levin. Senator Hagan.
    Senator Hagan. Thank you, Mr. Chairman.
    I just wanted to ask a question talking about defending 
against the Iranian short- and medium-range missiles. I agree 
with the Department's renewed emphasis on countering the short- 
and medium-range missiles. I understand that Iran's short and 
medium-range missile capability not only poses a threat to our 
strategic assets and allies in Europe, but also our allies' 
strategic assets and forces in the CENTCOM area of 
responsibility; and the Iranians' short- and medium-range 
ballistic missiles can have drastic effects to our soldiers in 
Iraq and Afghanistan, as well as our forward operating bases in 
theater that are critical to our logistical supply lines. Our 
partners in the Arabian Gulf I think are very concerned about 
these ballistic missile capabilities, particularly as it 
pertains to defending their critical infrastructure, obviously, 
the oil facilities. This has numerous implications for our 
efforts to provide our forces with the fuel that they need to 
consider and carry out their missions in theater.
    I applaud Secretary Gates's initiative to use the annual 
Manama Dialogue in Bahrain as a multilateral forum to discuss 
the development of a shared early warning and air and missile 
defense framework amongst his counterparts in the Gulf area.
    But can you provide the progress the Department's made in 
utilizing our Arab Gulf partners to build this strategic 
framework for a BMD shield that would protect our forces and 
strategic assets against the Iranian ballistic missile threat?
    General Cartwright. Yes, ma'am. Manama was but one 
dialogue. CENTCOM is currently running a center of excellence 
to ensure that the countries have the opportunity to see in 
detail what the opportunities of an architecture similar to 
what we're proposing here could offer to them. We put in Israel 
one of these new X-band radars for just that reason.
    One of the most difficult activities associated with the 
Gulf is that everything is on a bilateral basis. The reality is 
no one single country can mount either the defense or the 
offense alone to protect against this kind of threat. So much 
of what CENTCOM is working on in the Gulf is the understanding 
amongst them of how they can leverage off of each other. 
Whether they buy Patriot systems, indigenous systems that are 
built, other countries' systems, netting them together will get 
them a much more effective defense than working on a pure 
bilateral basis.
    General Petraeus is having significant progress, making 
significant progress, in that dialogue. As we start to 
introduce these new systems, I think most of those countries 
are very interested in buying additional Patriots, and we are 
moving our Patriots around, demonstrating to them what the 
capabilities are, not only in the modeling and simulation, but 
in the actual physical presence of those weapon systems, and 
moving them quite a bit so that multiple countries see it, but 
also so that Iran watches those movements. Quite frankly, these 
are very powerful steps as we move forward. The more we can 
layer that further out to the Israelis, the Jordanians, other 
countries out beyond the Gulf in the Middle East, to start to 
demonstrate a collective approach to this problem, the more 
valuable the deterrent aspects of this capability are.
    Senator Hagan. Let me ask one other question. I understand 
that the Department of Defense plans to field the land-based 
SM-3s by 2015 and is in the process of consulting with our 
allies, once again particularly Poland and the Czech Republic, 
about hosting a land-based version of the SM-3. But given the 
problems that we've experienced with Poland and the Czech 
Republic in the ratification process with regards to stationing 
radars and GBIs, and in addition the extra communication 
problems just recently, what lessons can we utilize to expedite 
this process?
    Ms. Flournoy. I think we have begun discussions with Poland 
about hosting, being a potential site to host SM-3s. What we've 
made clear to them is that we are not falling off the agreement 
that the previous administration signed with them, which 
covered a very broad range of security cooperation, to include 
the Patriots, to include a U.S. garrison in Poland, and so 
forth. So that is all still under way.
    In fact, we could go ahead with the ballistic missile 
agreement that we signed with a minor modification to the annex 
that simply substituted SM-3 for GBI as a referred-to system if 
they choose to proceed with us along this path.
    So I think with Poland the path is very clear should they 
decide to continue on down that path with us. In the Czech 
Republic, the discussion is not about hosting land-based 
missiles, but it is--because of this networked system, there 
are many other kinds of data fusion, command and control, ops 
center. There are all kinds of ways to participate in this 
system, and we are actively in discussions about that with the 
Czech Republic, who have already expressed to us that they very 
much want to remain a leading partner with us in the new 
architecture. We're just in the process of figuring out the 
details of what that will look like.
    Senator Hagan. Thank you.
    Chairman Levin. Thank you very much, Senator Hagan.
    Just one question. I guess we can take one question each on 
a second round if it's needed.
    General O'Reilly, you gave a speech in Boston on Monday and 
you said that the new European missile defense plan is a ``much 
more powerful missile defense proposal than the previous one.'' 
Can you just succinctly tell us why in your judgment? You've 
given us I think the essence in your earlier testimony this 
morning, but kind of just sum up: Why do you believe that this 
approach presents a much more powerful missile defense proposal 
than the previous one?
    General O'Reilly. Sir, in that discussion, which was to an 
international audience, the point I was making was that, as 
I've testified before, my greatest concern as the Director of 
the MDA is to be able to counter the proliferation of missiles 
that we see and the large, specifically the large raid sizes. 
That is becoming more evident around the world as more 
launchers, more missiles, and more exercises show that many 
countries are demonstrating and practicing that capability.
    In the previous defense architecture we had, we had a 
limited number of missiles that we could intercept at any one 
time. So this proposal allows you to put significantly more and 
rapidly expand the firepower of a missile defense system. 
That's a term that hasn't been used often, ``firepower'' in 
this case. But it is; it's firepower against missiles that have 
been launched against you.
    The firepower of this system is significantly higher. As 
General Cartwright and others have said--and we are all 
concerned about the threat predictions--we would like to move 
from a more rigid missile defense to one that's more adaptable 
and quickly flexible, so that if the threat changes we can very 
quickly increase that firepower and increase the orientation of 
it.
    Chairman Levin. We will also insert in the record your 
remarks of September 21.
    We will also insert in the record Secretary Gates' 
September 20 op-ed in The New York Times.
    [The information referred to follows:]
      
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
    Chairman Levin. If there are no other questions, with our 
great thanks for your testimony this morning and all your work 
on this, we will stand adjourned.
    [Questions for the record with answers supplied follow:]
               Questions Submitted by Senator Carl Levin
                              nato allies
    1. Senator Levin. Secretary Flournoy, what is the status of U.S.-
Polish discussions on deployment of a U.S. Army Patriot air and missile 
defense battery in Poland?
    Ms. Flournoy. The United States and Poland will discuss the 
upcoming rotations of a Patriot battery to Poland at the High Level 
Defense Group (HLDG) consultations in Warsaw on October 15-16. The 
United States will begin these rotations upon entry into force of the 
U.S.-Poland Supplemental Agreement to the North Atlantic Treaty 
Organization (NATO) Status of Forces Agreement, which is currently 
being negotiated.

    2. Senator Levin. Secretary Flournoy, specifically, does the United 
States plan to deploy such a battery in Poland in accordance with the 
U.S.-Polish Declaration of Strategic Cooperation and, if so, is there a 
schedule for such a deployment?
    Ms. Flournoy. The United States will begin the Patriot battery 
rotations upon entry into force of the U.S.-Poland Supplemental 
Agreement to the NATO Status of Forces Agreement.

    3. Senator Levin. Secretary Flournoy, there have been suggestions 
that our NATO allies are not supportive of the new missile defense plan 
announced by President Obama on September 17. Can you explain whether 
our NATO allies support the new plan?
    Ms. Flournoy. The response of almost all of our NATO allies to the 
Phased Adaptive Approach has been positive. When we briefed the North 
Atlantic Council in Brussels on September 16, there were expressions of 
support for the new approach and a general appreciation that this is a 
change in the way we plan to address the threat, but not a change in 
America's commitment to Europe. It is understandable that our decision 
to use a different approach to missile defense would cause some concern 
in Warsaw and Prague, but both Poland and the Czech Republic have 
already communicated their interest in participating in the Phased 
Adaptive Approach.

    4. Senator Levin. Secretary Flournoy, there has been confusion over 
the reaction of the Czech and Polish Governments to the new missile 
defense plan. Can you explain the position of the Czech and Polish 
Governments on the new plan?
    Ms. Flournoy. It appears that both governments are becoming 
increasingly receptive to the new plan as they understand the rationale 
behind the changes and know that they can be part of the new 
architecture should their governments desire.

    5. Senator Levin. Secretary Flournoy, can you explain what steps 
the United States is taking with Poland and the Czech Republic to give 
them an opportunity to participate in the new missile defense 
architecture?
    Ms. Flournoy. We are reaching out to both countries via new HLDG 
dialogues. The HLDG with Poland will take place on October 15-16 in 
Warsaw and the one with the Czech Republic will occur on November 5-6 
in Prague. During these and future discussions we will provide 
necessary details to allow these allies to determine how they want to 
continue to partner with the United States in the European Missile 
Defense plan.

                       capabilities of new system
    6. Senator Levin. General O'Reilly, there were suggestions at the 
hearing that the United States currently has no ballistic missile 
defense (BMD) against a long-range Iranian ballistic missile. Can you 
describe the degree of coverage provided by the Ground-based Midcourse 
Defense (GMD) system currently deployed in Alaska and California 
against long-range missiles that Iran might have in the future?
    General O'Reilly. [Deleted.]

    7. Senator Levin. General O'Reilly, can you describe how the 
recently announced European missile defense architecture will enhance 
the capability of the currently deployed GMD system, particularly with 
the planned deployment of an AN/TPY-2 X-band radar in the Caucasus 
region?
    General O'Reilly. [Deleted.]

    8. Senator Levin. General O'Reilly, the new missile defense plan 
for Europe includes, in Phase 4, a land-based Standard Missile-3 (SM-3) 
Block IIB system using enhanced sensor capabilities. Can you compare 
the planned capabilities of this Phase 4 system to those of the 
previously planned two-stage Ground-Based Interceptors (GBIs) proposed 
for deployment in Poland? For example: would the Phase 4 SM-3 IIB 
system be able to defend against as many (or more) potential future 
Iranian long-range missiles as the European Interceptor Site; would it 
cover a similar defended area; and what are the advantages of the 
planned SM-3 Block IIB in providing defense against long-range 
missiles?
    General O'Reilly. [Deleted.]

    9. Senator Levin. General O'Reilly, please describe how Phase 4 of 
the newly announced missile defense plan will augment or supplement the 
existing GMD system deployed in Alaska and California.
    General O'Reilly. [Deleted.]

    10. Senator Levin. General Cartwright, at the hearing it was 
mentioned that one of the benefits of the new missile defense plan is 
that it will be able to defend against Iranian missile attacks 
employing large raid sizes. Why is this important, and how does it 
relate to the existing threat of Iranian short- and medium-range 
ballistic missiles?
    General Cartwright. The Iranians are developing and testing more 
short- and medium-range ballistic missiles, as demonstrated again 
recently by multiple test launches in September. These systems exist 
now. Based on the potential for larger raid sizes, the Phased Adaptive 
Approach is better suited to counter that threat by providing the 
ability to launch more interceptors.

    11. Senator Levin. General Cartwright, of what value is this 
benefit to our regional combatant commanders?
    General Cartwright. The value of this benefit is that it provides 
more comprehensive protection sooner for our forward-based and deployed 
forces from known, existing, and emerging ballistic missile threats.

    12. Senator Levin. General O'Reilly, Iran recently launched a 
series of short- and medium-range ballistic missiles, reportedly 
including the Shahab-3 and the Sejil medium-range missiles that could 
reach as far as Israel and Turkey. Would the new missile defense 
architecture be able to defend against these missiles?
    General O'Reilly. [Deleted.]

    13. Senator Levin. General Cartwright, there has been a suggestion 
that the new European missile defense architecture somehow represents a 
worse capability than the previous plan. Secretary Gates has said the 
new architecture is ``vastly more suitable'' and would be a ``far more 
effective defense'' than the previous plan. Do you agree with Secretary 
Gates? If so, what is your view of how the new architecture will 
provide a better capability to defend our forward-based forces and 
allies in Europe than the previously planned system?
    General Cartwright. Yes, I do agree with Secretary Gates. The 
Phased Adaptive Approach is better suited than the previously planned 
system to meet the current and projected threat. The previous GBI plan 
was designed to meet an ICBM threat that has not developed as expected 
and contained a limited number of interceptors from a fixed location. 
The Phased Adaptive Approach will allow us to pace the threat, engage 
more inbound threats, and provide flexibility to surge additional 
capabilities as required. This allows us to better protect our forces 
oversees, as well as contribute to NATO's overall defense.

            impact of new architecture on israel's security
    14. Senator Levin. General Cartwright and General O'Reilly, the 
United States has already deployed a forward-based radar in Israel, and 
we have cooperative missile defense programs with Israel. The main 
missile threat to Israel comes from Iran's growing number of medium-
range missiles. The new architecture is intended to defend against 
these same Iranian missiles. Overall, how would you describe the impact 
of the new architecture on Israel's security?
    General Cartwright. Although the architecture proposed for Europe 
does not provide any specific coverage to Israel, the missile defense 
capability that we deploy to Europe can potentially improve security 
for all of our allies as we leverage technological advances and lessons 
learned.
    General O'Reilly. The recent additions and cooperative improvements 
to the Israeli missile defense architecture have provided improved 
early warning for the Israeli systems, and have added an additional 
layer of defense. The AN/TPY-2 X-band radar provides earlier detection 
and discrimination of ballistic missile attack than was previously 
available to the Israeli Arrow Weapon System. In addition, when Aegis 
BMD ships are operating in the theater, they can use the AN/TPY-2 
information to conduct exo-atmospheric ``upper tier'' intercepts 
against ballistic missiles targeting Israel. These improvements give 
Israel better defensive capabilities against Iranian ballistic 
missiles, as well as the ability to defend against attacks with greater 
raid size.

    15. Senator Levin. General Cartwright and General O'Reilly will the 
new architecture help improve the ability to defend Israel against an 
Iranian ballistic missile attack?
    General Cartwright. Although the architecture proposed for Europe 
does not provide any specific coverage to Israel, the missile defense 
capability that we deploy to Europe can potentially improve security 
for all of our allies as we leverage technological advances and lessons 
learned.
    General O'Reilly. [Deleted.]
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                             review process
    16. Senator Bill Nelson. Secretary Flournoy and General Cartwright, 
you were both involved in the process by which the administration 
conducted its review of options for missile defense in Europe.
    Can you describe that process? For example, when did the review 
start, how was it conducted, who was involved, who was consulted, and 
so on?
    Ms. Flournoy. As part of the Ballistic Missile Defense Review 
(BMDR) required in part by section 234 of the Duncan Hunter National 
Defense Authorization Act for Fiscal Year 2009 (Pub. L. 110-417), the 
Department of Defense (DOD) is reviewing the U.S. strategy and policy 
for BMD. Among other topics, the BMDR includes an in-depth 
consideration of our strategic and operational approach to European-
based BMD.
    The review began in early April and includes representatives from 
multiple BMD stakeholders, including the Chairman of the Joint Chiefs 
of Staff; the Secretaries of the Military Departments; Combatant 
Commanders; the Missile Defense Agency (MDA); the Office of the 
Secretary of Defense, with responsibilities for national and 
international BMD policy; the intelligence community; the Department of 
State and the National Security Council staff. The review has included 
opportunities for allies and partners abroad to comment on and shape 
the BMDR. Although the review is still ongoing, the analysis conducted 
and conclusions reached to date informed the joint recommendation by 
the Secretary of Defense and the Chairman of the Joint Chiefs of Staff 
to pursue a revised approach for missile defense in Europe. The 
President accepted their recommendation and announced the decision on 
September 17, 2009.
    Consistent with congressional direction, the BMDR will be finalized 
and provided to Congress in January 2010.
    General Cartwright. As part of the BMDR required in part by section 
234 of the National Defense Authorization Act for Fiscal Year 2009 (S. 
3001), DOD is reviewing the United States' strategy and policy for BMD. 
Among other topics, the BMDR includes an in-depth consideration of our 
strategic and operational approach to European-based BMD.
    The review began in early April and includes representatives from 
multiple BMD stakeholders, including the Joint Chiefs of Staff and 
combatant commanders, as the end-user of the BMDS; the MDA, as the 
developer of the missile defense system; the Office of the Secretary of 
Defense responsible for national and international BMD policy; the 
Intelligence Community; the Department of State; and NATO. While the 
review is still ongoing, the analysis conducted and conclusions reached 
to date informed the joint recommendation by the Secretary of Defense 
and the Joint Chiefs of Staff to pursue a revised approach for missile 
defense in Europe. The President accepted their recommendation and 
announced the decision on September 17, 2009.
    Consistent with congressional direction, the BMDR will be finalized 
and provided to Congress in January 2010.

           additional capability to defend the united states
    17. Senator Bill Nelson. General O'Reilly, Secretary Gates has said 
that the new architecture will have the ability to provide additional 
defense of the United States against a possible future Iranian long-
range missile, using a land-based version of the SM-3, in Phase 4 of 
the new system. Can you describe how this capability will work, and how 
it will augment the existing capability we already have deployed in 
Alaska and California to defend the Homeland against long-range missile 
attacks from nations like North Korea and Iran?
    General O'Reilly. [Deleted.]

                     funding impact of new approach
    18. Senator Bill Nelson. General O'Reilly, given the President's 
decision on the new missile defense architecture for Europe, do you see 
any funding impacts for fiscal years 2009 or 2010 funds to implement 
the new architecture? If so, what are they?
    General O'Reilly. MDA is committed to fully funding this program as 
the Agency prepares for the next budget submission to Congress. 
However, it is important that MDA have relief from rescissions and the 
flexibility to spend the unused fiscal year 2009 Research, Development, 
Test, and Evaluation (RDT&E) and some Military Construction (MILCON) 
dollars associated with the previous European Site proposal. With 
relief from some of the constraints placed on the Agency's fiscal year 
2009 budget and some redirection of fiscal year 2010 funds, MDA 
believes it can pursue this new architecture within its fiscal year 
2010 budget request.
    MDA also would note that both the House and Senate authorizing 
committees very presciently included provisions in this year's National 
Defense Authorization bill that permit the Department to use fiscal 
year 2009 and fiscal year 2010 funding for an alternative architecture 
once the Secretary of Defense certified that this architecture is as 
cost-effective, technically reliable, and operationally available as 
the previous program.

                  overarching missile defense approach
    19. Senator Bill Nelson. General Cartwright, you have described the 
need for the United States to have flexible and agile military 
capabilities that can adapt to rapidly evolving security challenges and 
threats. How does this new approach to missile defense in Europe fit 
into that construct?
    General Cartwright. The phased adaptive approach utilizes systems, 
such as AEGIS, that are already available and have the ability to 
deploy and provide limited protection much sooner than the previous 
program of record (EMR/EIS). With additional radar assets and land 
based SM-3s we will have the capability to meet that need as the threat 
evolves.

    20. Senator Bill Nelson. General Cartwright, do you agree that this 
new architecture can be used in other regions, besides Europe, as well?
    General Cartwright. Yes. Although the elements may vary from region 
to region, the concept of a flexible, adaptable architecture can be 
applied to other regions of concern.

                       czech view of x-band radar
    21. Senator Bill Nelson. Secretary Flournoy, on a trip in April 
with Chairman Levin and Senator Collins, I had the distinct impression 
that the Czech Government was not moving toward ratification of its 
agreements on deploying the previously proposed European Midcourse 
Radar, and that a new Czech Government might not ratify the agreements. 
Do you share that view?
    Ms. Flournoy. The BMD Agreement and the Supplemental Status of 
Forces Agreement were approved by the Czech Senate in November 2008. 
Approval of the two agreements in the lower chamber was suspended after 
the collapse of the governing coalition in March 2009. We do not expect 
any further consideration of the agreements until after elections, 
probably in the first half of 2010.

    22. Senator Bill Nelson. Secretary Flournoy, do you believe the 
Czech Government is interested in participating in the new missile 
defense architecture?
    Ms. Flournoy. The Czech Government has communicated its interest in 
discussing possible opportunities for participation in the newly 
announced missile defense architecture. We look forward to examining 
proposals for their potential participation during the HLDG in 
November.

                 capabilities of the standard missile-3
    23. Senator Bill Nelson. General O'Reilly, much of the new missile 
defense architecture approved by the President would rely on the SM-3, 
both on Aegis ships and on land.
    Can you describe your level of confidence in the ability of the SM-
3 to evolve to have increased capability to accomplish its intended 
missions?
    General O'Reilly. Operational since late 2004, the Aegis BMD SM-3 
system is MDA's only Element that has been assessed to be operationally 
suitable and effective by an independent test agent. This assessment 
was earned as a result of rigorous system engineering, a knowledgeable 
U.S. Government/industry team, and a stressing, realistic test program. 
It is upon this foundation that we place our confidence that the SM-3 
system will evolve and meet future BMD challenges. Through the first 
half of fiscal year 2009 the SM-3 Block IA has a stellar record of 
performance in its flight test program, successfully engaging 8 of 11 
ballistic missile targets. The SM-3 has consistently delivered 
capabilities that meet, and many times exceed, requirements, e.g., the 
20 February 2008 satellite intercept demonstrated interceptor 
capability far beyond that required by design specifications. SM-3 
Block IA missiles deployed in Phase One of the European Phased Adaptive 
Architecture on Aegis BMD-capable ships will provide flight test proven 
near-term defense of Europe and our Deployed Forces against short- and 
medium-range ballistic missiles.
    The successful SM-3 Block IA flight test program will be followed 
by the initial flight test of the follow-on interceptor, the SM-3 Block 
IB, in calendar year 2011. The Aegis BMD Project Office follows a 
disciplined system engineering process to test and verify weapon 
capabilities through risk management activities and extensive ground 
testing and simulations. The design process is planned to build 
confidence through flight test demonstrations of intercept capability. 
The SM-3 Block IB will be subjected to the same rigorous verification 
program that the successful SM-3 Block IA missile was. Since the SM-3 
Block IB uses the same rocket motors and other kill vehicle components 
that have already been demonstrated, MDA is confident that technical 
risks are mitigated. When certified for fielding, the SM-3 Block IB 
will be the basis for upgrading the European defense in Phase Two with 
deployment both at sea on Aegis BMD-capable ships and at a land-based 
Aegis Ashore site. The SM-3 Block IB will provide extended capability 
against short- and medium-range ballistic missiles.
    While still in its early design phase of development with our 
international partner Japan, the SM-3 Block IIA will be deployed to 
provide broader coverage of Europe against intermediate range ballistic 
missiles as well as short- and medium-range ballistic missiles in Phase 
Three of the European Phased Adaptive Approach. Currently seven flight 
tests are planned for the SM-3 Block IIA to demonstrate its ability to 
meet five joint United States/Japan knowledge points leading to 
verification of its intercept performance. Following the joint flight 
test demonstrations there will be additional tests to verify 
integration with Aegis Weapon System upgrades and the rest of the BMDS.
    Finally, to further extend our coverage of Europe against all 
ranges of ballistic missiles and provide additional defense from long 
range ballistic missiles threatening the U.S. mainland in Phase Four, 
MDA is exploring design concepts for an SM-3 Block IIB missile to be 
based at Aegis Ashore sites. As plans mature for this new developing 
capability, the same disciplined, success-oriented process will be 
followed to deliver or exceed requirements.

               revised iranian missile threat assessment
    24. Senator Bill Nelson. General Cartwright, one of the issues 
highlighted by both President Obama and Secretary Gates in explaining 
the new missile defense architecture is a revised assessment of the 
Iranian ballistic missile threat. The conclusion of this assessment is 
apparently that Iran is putting more effort into its short- and medium-
range missile program--and increasing the number of those missiles--and 
is not proceeding as quickly with the development of long-range 
ballistic missiles as previously predicted. Can you explain the new 
threat assessment and describe the impact of this revised threat 
assessment on the development of the new architecture?
    General Cartwright. [Deleted.]
                                 ______
                                 
               Questions Submitted by Senator Mark Begich
                    ballistic missile defense review
    25. Senator Begich. Secretary Flournoy, General Cartwright, and 
General O'Reilly, since March 2009, the MDA has discussed conducting a 
BMDR. Reference a presentation given to our office in May 2009 by MDA, 
the BMDR was going to be conducted from August through December 2009 
and provided to Congress in January 2010. During the hearing, the BMDR 
was referenced several times as justification for recent decisions 
concerning missile defense. At one point, it was said that the BMDR has 
been going on for 3 years. However, both Secretary Flournoy and General 
Cartwright's joint testimony states the BMDR will not be completed 
until January 2010.
    There seems to be several inconsistencies with the timing and 
execution of the BMDR and the decisions being made based on interim 
findings. DOD and the administration have made significant changes to 
the missile defense program of record based on findings from what they 
say are results of the BMDR. These changes include reduction from 44 
GBIs based in the United States to 30 GBIs. Most recently, the decision 
to cancel the deployment of the 10 GBIs deployed in Europe while 
proposing an entirely new means of intercept through the ascent phase 
using SM-3 missiles. When will Congress receive the BMDR?
    Ms. Flournoy. Consistent with section 234 of the Duncan Hunter 
National Defense Authorization Act for Fiscal Year 2009, the BMDR will 
be finalized and provided to Congress no later than January 31, 2010.
    General Cartwright. The analysis required to support the 
President's decision on European missile defense was front-loaded in 
the review. There is more work to be done in other areas of the review. 
Consistent with congressional direction from section 234 of the 
National Defense Authorization Act for Fiscal Year 2009, the BMDR will 
be finalized and provided to Congress in January 2010.
    General O'Reilly. The Office of the Secretary of Defense is 
responsible for conducting the BMDR, which is still ongoing. MDA has 
participated by providing critical technical and engineering data 
needed to inform the discussion. The results of the BMDR will be 
submitted to Congress not later than January 31, 2010 as required by 
Sec. 234 of the National Defense Authorization Act for Fiscal Year 
2009. But regarding your concerns about the number of GBIs, 30 highly 
ready operational GBIs will provide the United States with adequate 
operational interceptors considering the limited number of ICBM capable 
launch complexes in North Korea and Iran. The fiscal year 2010 budget 
reflects our commitment to procure the complete buy of 44 GBIs on 
contract, of which some will go to the replacement and refurbishment of 
the 14 oldest interceptors to improve the operational readiness of the 
fleet and extend the U.S. GBI production capacity.

    26. Senator Begich. Secretary Flournoy, General Cartwright, and 
General O'Reilly, were conclusions from this review used in the 
administration's change of direction in the European site? If so, why 
has the BMDR and supporting documentation not been provided to 
Congress?
    Ms. Flournoy. Although the BMDR is not due to Congress until 
January 2010, we already have reached some important conclusions. We 
have decided to move forward now on selected conclusions from the 
review so we do not delay the process of improving defenses for 
ourselves, our deployed forces, and our allies and partners, many of 
whom are facing an immediate, near-term threat from large inventories 
of short- and medium-range ballistic missiles. This is an important 
issue to some of our allies and partners, and we wanted to inform them 
as soon as possible.
    Consistent with congressional direction as outlined in Section 234 
of the Duncan Hunter National Defense Authorization Act for Fiscal Year 
2009, the BMDR will be finalized and provided to Congress no later than 
in January 31, 2010.
    General Cartwright. Although the BMDR is not due to Congress until 
January, we already have reached some important conclusions. We have 
decided to move forward now on selected conclusions from our review so 
we don't delay the process of improving defenses for ourselves, our 
deployed forces, and our allies, many of who are facing an immediate, 
near-term threat from large inventories of short- and medium-range 
ballistic missiles. This is an important issue to some of our allies 
and we wanted to inform them as soon as possible.
    Consistent with congressional direction as outlined in section 234 
of the National Defense Authorization Act for Fiscal Year 2009, the 
BMDR will be finalized and provided to Congress in January 2010.
    General O'Reilly. The Office of the Secretary of Defense is 
responsible for conducting the BMDR, which is still ongoing. MDA has 
participated by providing critical technical and engineering data 
needed to inform the discussion. The results of the BMDR will be 
submitted to Congress not later than January 31, 2010, as required by 
section 234 of the National Defense Authorization Act for Fiscal Year 
2009.

    27. Senator Begich. Secretary Flournoy, General Cartwright, and 
General O'Reilly, the administration and DOD have consistently agreed 
to work in conjunction with Congress. Was it the intent of DOD to 
submit the BMDR to Congress for review before decisions were made on 
changing the policies and programs of record for missile defense in the 
United States and around the world? If so, what prompted accelerated 
decisions?
    Ms. Flournoy. It was not our intent, nor were we required, to 
submit the BMDR report to Congress for review before decisions were 
made. The BMDR is one of several reviews, including the Space Policy 
Review and the Nuclear Policy Review, being conducted in conjunction 
with the Quadrennial Defense Review. These reviews will form the basis 
for DOD policy and strategy over the next 10-15 years, and will inform 
the preparation of the fiscal year 2011 budget.
    Section 234 of the Duncan Hunter National Defense Authorization Act 
for Fiscal Year 2009 directs the Secretary of Defense to conduct a 
review of the BMD policy and strategy of the United States and, upon 
completion, provide that report to Congress. Consistent with those 
requirements, the Secretary of Defense will submit to Congress the 
final results of the review no later than January 31, 2010.
    We have decided to move forward now on selected conclusions from 
the review so we do not delay the process of improving defenses for 
ourselves, our deployed forces, and our allies and partners, many of 
whom are facing an immediate, near-term threat from large inventories 
of short- and medium-range ballistic missiles. This was an important 
issue to some of our allies and partners, and we wanted to inform them 
as soon as possible.
    General Cartwright. It was not our intent, nor were we required, to 
submit the BMDR report to Congress for review before decisions were 
made. The BMDR is one of several reviews, including the Space Policy 
Review and the Nuclear Policy Review, being conducted in conjunction 
with the Quadrennial Defense Review. These reviews will form the basis 
for DOD policy and strategy over the next 10-15 years, and will inform 
the preparation of the fiscal year 2011 budget.
    Section 234 of the National Defense Authorization Act for Fiscal 
Year 2009 directs the Secretary of Defense to conduct a review of the 
BMD policy and strategy of the United States and, upon completion, 
provide that report to Congress. Consistent with those requirements, 
the Secretary of Defense will submit to Congress the final results of 
our review in January 2010.
    We have decided to move forward now on selected conclusions from 
our review so we don't delay the process of improving defenses for 
ourselves, our deployed forces, and our allies, many of who are facing 
an immediate, near-term threat from large inventories of short- and 
medium-range ballistic missiles. This was an important issue to some of 
our allies and we wanted to inform them as soon as possible.
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.

    28. Senator Begich. Secretary Flournoy, General Cartwright, and 
General O'Reilly, were the decisions to reduce the number of 
interceptors deployed in the United States (Alaska and California) from 
44 to 30 based on having 10 GBIs deployed in Europe as indicated by the 
2010 President's budget submission?
    Ms. Flournoy. The decision to reduce the number of operational 
interceptors emplaced at Fort Greely, Alaska, was driven by the current 
assessment of the long-range ballistic missile threat from countries 
like Iran and North Korea. The Secretary of Defense, in conjunction 
with the Chairman of the Joint Chiefs of Staff and the MDA, determined 
that the current force of 30 operational GBIs provides the warfighter a 
sufficient defense against possible long-range ballistic missile 
threats to the homeland from rogue nations like Iran and North Korea. 
This determination was not dependent on having 10 additional GBIs 
deployed in Europe.
    General Cartwright. The recent decision on European-based BMD was 
independent of force-structure considerations concerning GBIs in Alaska 
and California.
    The decision to reduce the number of operational interceptors 
emplaced at Fort Greely, AK, was driven by the current assessment of 
the long-range ballistic missile threat from countries like Iran and 
North Korea. The Secretary of Defense, in conjunction with the Joint 
Chiefs of Staff and the MDA, determined that the current force of 30 
operational GBIs provides the warfighter a sufficient defense against 
possible long-range ballistic missile threats to the homeland from 
rogue nations like Iran and North Korea.
    It should also be noted that the decision to cap the emplacement of 
operational interceptors at 30 will allow the Department to provide a 
more reliable and effective capability for the defense of the homeland 
by decommissioning the older ``test-bed'' Missile Field 1 at Fort 
Greely, and instead begin fielding GBIs in the new Missile Field 2.
    General O'Reilly. [Deleted.]

                  gbi silos and silo interface vaults
    29. Senator Begich. General Cartwright and General O'Reilly, in the 
September 17 joint press conference between Secretary Gates and General 
Cartwright, General Cartwright, you stated: ``We're continuing the 
effort that we have ongoing today on the ground-based interceptor, 
which is to build a two-stage capability . . . those steps are funded 
and will continue.'' We have already constructed and paid for the last 
seven silos and silo-interface vaults to be fielded in Alaska at a cost 
of approximately $62 million. It had been discussed that since the 
decision to not field the final seven interceptors in Alaska, these 
systems would be used in Europe. Since deploying a silo-based GBI 
system in Europe is no longer planned, will DOD reevaluate the decision 
about fielding the final seven silos in MF 2 at Fort Greely? Why or why 
not?
    General Cartwright. MDA plans to field the final 7 silos to 
complete Missile Field-2 in a 14-silo configuration. While this will 
not affect the number of GBIs emplaced at Fort Greely, it will allow 
for the decommissioning of Missile Field-1 and provide future 
flexibility for an increase in the number of interceptors, if the 
threat evolves.
    General O'Reilly. MDA plans to complete Missile Field-2 in a 14 
silo configuration. This will allow for the decommissioning of Missile 
Field-1 and provide future flexibility for an increase in the number of 
interceptors, if the threat evolves.

    30. Senator Begich. General Cartwright and General O'Reilly, could 
the final seven silos and silo interface vaults be installed in Alaska 
and accept the two-phase interceptors?
    General Cartwright. Yes. The launch silo and handling equipment are 
the same for two-stage and three-stage interceptors, as these 
interceptors share the same external dimensions as well as the same 
structural and mechanical interfaces with the silo. Emplacement of two-
stage interceptor would require development of changes to GMD Fire 
Control and Command Launch Equipment software, with requisite testing. 
However, MDA currently has no plans to emplace more than 26 GBIs at 
Fort Greely. Additional silos at Fort Greely by themselves would not be 
cause to increase the number of GBIs without a change in the threat 
assessment leading to a decision to emplace additional interceptors.
    General O'Reilly. Yes. The launch silo and handling equipment are 
the same for two-stage and three-stage interceptors, as these 
interceptors share the same external dimensions as well as the same 
structural and mechanical interfaces with the silo. Emplacement of two-
stage interceptor would require development of changes to GMD Fire 
Control and Command Launch Equipment software, with requisite testing. 
However, MDA currently has no plans to emplace more than 26 GBIs at 
Fort Greely.

                                 threat
    31. Senator Begich. General Cartwright, in your joint prepared 
testimony with Secretary Flournoy, you state that Iran has increased 
production of short-medium range missiles and is slower to develop 
ICBMs. However, you caveat this statement with the fact that our 
intelligence projections can be wrong. I understand that a report from 
the International Atomic Energy Agency (IAEA) believes Iran is much 
closer today to marrying their ballistic missile arsenal and its 
nuclear program to fashion a system capable of carrying a nuclear 
warhead. It has been stated construction of a missile field takes 5 
years and as a result of the fiscal year 2010 shortfalls, production 
base capabilities will most likely be lost or otherwise negatively 
impacted. What is your assessment in how close Iran is to materializing 
a system capable of carrying a nuclear warhead to attack Europe and the 
United States?
    General Cartwright. [Deleted.]

    32. Senator Begich. General Cartwright, has the construction and 
production aspect necessary for deploying additional GMD capabilities 
to meet the materializing threat been considered?
    General Cartwright. Construction and production aspects for 
deploying additional GMD capabilities have been considered. Should 
future changes to the assessed threat so warrant, the Combatant 
Commands, in collaboration with the Services and the Joint Staff, will 
document the requirement for additional GMD capabilities.

    33. Senator Begich. General Cartwright, what level of strategic 
risk has been accepted by decisions not to deploy a European site or 
field 44 interceptors in CONUS?
    General Cartwright. First, there was no decision to ``not deploy a 
European Site''. Rather, the new Phased Adaptive Approach reaffirms the 
strategic value of European-based missile defense. The new approach 
revises the previous plan in order to better leverage recent 
advancements in technologies and capabilities, and to better respond to 
the threat that our forward-deployed forces face now. The new approach 
will still field shooter, sensor and command and control elements in 
Europe.
    The decision to field 30 operational GBIs in Alaska and California, 
rather than the previously planned 44, was the result of a careful and 
deliberative process by which the Department determined the best way to 
provide missile defense capabilities. This year's budget request, 
including the decision to field 30 GBIs, places a greater emphasis on 
defending against short- and medium-range ballistic missiles (SRBM/
MRBM), which comprise the most significant ballistic missile threat to 
our forces and allies today. The sheer inventory of SRBM's and MRBM's 
that exist today in countries like Iran require us to focus on 
deploying regional and theater capabilities now, while also developing 
defenses against long-range missiles should such a threat materialize 
in the future.
    The decisions reflected in the administration's fiscal year 2011 
budget request and the recent decision on European BMD substantially 
decreases the risk to our forward-deployed forces, including their 
families, and our friends and allies.

    34. Senator Begich. General Cartwright, how does the Department 
justify that risk?
    General Cartwright. As noted above, the decisions reflected in the 
administration's fiscal year 2011 budget request and the recent 
decision on European BMD substantially decreases the risk to our 
forward-deployed forces, including their families, and our friends and 
allies.

                                funding
    35. Senator Begich. General O'Reilly, we have seen several cost 
estimates for the various options for a missile defense system in 
Europe. The two main systems discussed were a silo-based plan, recently 
cancelled by the administration, and a sea-based plan. According to a 
February 2009 Congressional Budget Office (CBO) report, the silo-based 
plan would cost between $9 billion to $14 billion over 20 years. The 
CBO report says the sea-based plan in which the United States would 
deploy SM-3 interceptors on Navy ships and station them permanently at 
three locations in European waters would cost almost twice as much as 
MDA's original proposal--a total of about $18 billion to $26 billion 
over 20 years--largely because CBO assumed that the Navy would need to 
buy additional ships to operate it. However, testimony today indicated 
the Department has not yet fleshed out the details of requirements 
necessary to execute this plan. Is there proper funding in fiscal year 
2010 and planned in fiscal year 2011 to begin to implement the 
administration's new plan? Please describe in detail.
    General O'Reilly. MDA is committed to fully funding this program as 
the Agency prepares for the next budget submission to Congress. 
However, it is important that MDA have relief from rescissions and the 
flexibility to spend the unused fiscal year 2009 RDT&E and some MILCON 
dollars associated with the previous European Site proposal. With 
relief from some of the constraints placed on the Agency's fiscal year 
2009 budget and some redirection of fiscal year 2010 funds, MDA 
believes it can pursue this new architecture within its fiscal year 
2010 budget request. We are currently building the fiscal years 2011-
2015 Future Years Defense Plan and out-year funding profiles to reflect 
the new architecture, and they will be available with the PB11 release.
    MDA also would note that both the House and Senate authorizing 
committees very presciently included provisions in this year's National 
Defense Authorization bill that permit the Department to use fiscal 
year 2009 and fiscal year 2010 funding for an alternative architecture 
once the Secretary of Defense certified that this architecture is as 
cost-effective, technically reliable, and operationally available as 
the previous program.

                   ascent phase intercept technology
    36. Senator Begich. General O'Reilly, following the April 6, 2009, 
administration announcement to cut certain missile defense systems and 
increase funding in other areas, MDA briefed a new layer to the 
Integrated BMD plan, Ascent Phase Intercept. When should Congress 
expect a detailed brief on this technology and plan for how this will 
be integrated into the BMD architecture?
    General O'Reilly. The House Armed Services Committee directed the 
Secretary of Defense to submit a Report to Congress on Ascent Phase 
Missile Defense Strategy (``Early Intercept''). The Report to Congress 
is due 180 days after enactment of National Defense Authorization Bill 
for Fiscal Year 2010 (est April 2010).

                        sm-3 missiles in europe
    37. Senator Begich. Secretary Flournoy and General O'Reilly, 
Secretary Gates has said that we will deploy ``scores'' of SM-3 
missiles in Europe to defend against a growing Iranian threat of short-
to medium-range missiles. Can you better define ``scores'' of missiles?
    Ms. Flournoy. The ability to augment future land-based sites with 
Aegis-capable ships will allow the United States to rapidly increase 
defensive capabilities when needed. The Phased Adaptive Approach will 
field a significantly larger number of interceptors and sensors by 
leveraging proven, mobile, and more cost-effective platforms like AN/
TPY-2 radars, airborne infrared sensors, and SM-3s.
    General O'Reilly. [Deleted.]
                                 ______
                                 
              Questions Submitted by Senator Jeff Sessions
                            allied reactions
    38. Senator Sessions. Secretary Flournoy, when were our allies 
notified of the President's decision on missile defense in Europe?
    Ms. Flournoy. The President phoned the Czech Prime Minister on the 
evening of September 16 to inform him of the decision, and he reached 
his Polish counterpart on the morning of September 17. I led an 
interagency team to Warsaw, Prague, and NATO Headquarters in Brussels 
on September 17 to provide details on the basis for the decision and 
our new proposed BMD architecture.

    39. Senator Sessions. Secretary Flournoy, were they consulted in 
advance of the notification, and if so, on what date(s)?
    Ms. Flournoy. Yes. Consultations with allies and friends on the 
BMDR began in May in various bilateral and multilateral settings. We 
consulted with NATO as well as a number of European countries. During 
these consultations we listened and offered allies the opportunity to 
share their ideas and suggestions for consideration during our review.

    40. Senator Sessions. Secretary Flournoy, Secretary Gates said 
during his press conference: ``We would prefer to put the SM-3s in 
Poland, in place of the GBIs.'' Does this mean that we have not yet 
gained Poland's support to field land-based SM-3 missiles in exchange 
for the GBIs?
    Ms. Flournoy. We have offered Poland the ``first right of refusal'' 
to host a land-based SM-3 site in Poland in large part due to Poland's 
willingness to be part of our previous European Missile Defense plans. 
We expect that Poland will make its intentions known later this fall.

    41. Senator Sessions. Secretary Flournoy, what is the likelihood 
that Poland and the Czech Republic as well as other NATO countries will 
agree to host land-based SM-3s and associated sensors?
    Ms. Flournoy. We are confident that NATO countries will support our 
efforts as they begin to realize that the intent of the system is to 
protect not only U.S. forces, dependents, and military facilities in 
Europe, but all NATO member countries as well.
    NATO's initial response to our briefing on September 17 was very 
positive. Since then, several allies have contacted us to express their 
interest in hosting elements of the new architecture.

    42. Senator Sessions. Secretary Flournoy, under the Bush concept, 
our NATO allies were encouraged to contribute to Europe's defense 
against short- and medium-range threats. Your plan suggests the United 
States will assume this mission. How do we now ensure our allies 
contributions to their own defense?
    Ms. Flournoy. Under the Phased Adaptive Approach, there will be 
more opportunities for allies to participate in their own defense. For 
example, the Phased Adaptive Approach will be interoperable with NATO 
systems and with the lower-tier BMD systems that are already being 
acquired by some allies. Also, several allies already have Aegis and 
Patriot capabilities that could contribute to the Phased Adaptive 
Approach.

                           russian reactions
    43. Senator Sessions. Secretary Flournoy, General Cartwright, and 
General O'Reilly, when were the Russians notified of the President's 
decision on missile defense in Europe?
    Ms. Flournoy. Ambassador Kislyak of the Russian Federation was 
notified of the President's decision on the morning of September 17, 
EST.
    General Cartwright. My understanding is that the Russian Government 
was notified of the President's decision on September 17. I cannot 
offer additional clarity on the meeting as neither I nor any Joint 
Staff representatives were present.
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.

    44. Senator Sessions. Secretary Flournoy, General Cartwright, and 
General O'Reilly, were they told before or after we spoke with our 
allies and if so, what has been their reaction?
    Ms. Flournoy. The Russians were told after the Czechs and Poles 
were notified. The Russian reaction has been cautious, but generally 
positive. Prime Minister Vladimir Putin called the decision ``correct 
and brave.'' President Dmitri A. Medvedev hinted that Russia would 
respond favorably to the decision to replace the program of record with 
a missile shield that is seen as less threatening to Moscow. Foreign 
Minister Lavrov has also made positive comments on the decision, 
stating it ``creates good conditions for dialogue.''
    Other Russian officials such as Dmitriy Rogozin and the Chief of 
the General Staff, General Nikolai Makarov, have been less than 
enthusiastic since the announcement was made, indicating that they want 
guarantees that the system in no way threatens Russia.
    General Cartwright. We notified our Czech and Polish allies prior 
to the U.S. Government's notification to the Russian Government. The 
Russian President and Prime Minister made public statements that were 
generally supportive of the decision. Of course, the Russians remain 
interested in learning the details associated with our plans for 
missile defense in Europe, and we are committed to meeting with them to 
determine their willingness to play a constructive and cooperative role 
in the process.
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.

    45. Senator Sessions. Secretary Flournoy, General Cartwright, and 
General O'Reilly, what has been their reaction?
    Ms. Flournoy. Russian reaction has been cautious, but generally 
positive. Prime Minister Vladimir Putin called the decision ``correct 
and brave.'' President Dmitri A. Medvedev hinted that Russia would 
respond favorably to the decision to replace the program of record with 
a missile shield that is seen as less threatening to Moscow. Foreign 
Minister Lavrov has also made positive comments on the decision, 
stating it ``creates good conditions for dialogue.''
    Other Russian officials such as Dmitriy Rogozin and the Chief of 
the General Staff, General Nikolai Makarov, have been less than 
enthusiastic since the announcement was made, indicating that they want 
guarantees that the system in no way threatens Russia.
    General Cartwright. Following the President's announcement on the 
new ``phased adaptive approach'' to missile defense in Europe, Russian 
official statements by the President and Prime Minister were cautiously 
optimistic that the new approach would address Russian security 
concerns. The Russian President indicated that ISKANDER missiles would 
no longer need to be deployed to Kaliningrad. In addition, following 
the presidents' meeting on the margins of the U.N. General Assembly 
meeting, President Medvedev announced a greater willingness to consider 
sanctions as part of the diplomatic process with respect to Iran. I 
anticipate that a more in-depth substantive dialogue between U.S. and 
Russian experts will occur in the near-term with a view toward 
exploring areas of cooperation in this area.
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.

    46. Senator Sessions. Secretary Flournoy, General Cartwright, and 
General O'Reilly, has the administration received assurances that the 
future deployment of different missiles with the same intended 
capability as the GBI to intercept intercontinental ballistic missiles 
will not be met with future resistance and objection?
    Ms. Flournoy. No, the Russians have not provided such assurances, 
nor did we expect them to do so. An important aspect of the new Phased 
Adaptive Approach is its adaptability in the face of uncertainty over 
the development of the Iranian ballistic missile threat. That 
uncertainty may require future deployment of different systems, and we 
hope Russia would cooperate with the United States in the face of a 
common threat. Russia seems to be reviewing the new approach, and its 
position could evolve. We are hoping that our efforts to be transparent 
with the Russians and to encourage Russian participation and 
cooperation on missile defense will result in a greater amount of trust 
and Russian cooperation with us.
    General Cartwright. No assurances have been received. We have yet 
to have a detailed experts-level exchange with the Russians on this 
aspect of our missile defense plans. However, the reaction from the 
Russian political leadership has been very positive and we anticipate 
that response to factor into a constructive dialogue with our Russian 
colleagues at the expert level.
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.

    47. Senator Sessions. Secretary Flournoy, General Cartwright, and 
General O'Reilly, what will we do if they change their minds and 
object?
    Ms. Flournoy. The decision on missile defense was not based on any 
expectations about the Russian reaction. The United States changed its 
European BMD plans because of an updated threat assessment and the 
availability of new capabilities. Although the new Phased Adaptive 
Approach approved by the President does not pose a threat to Russia, 
there will likely be elements of the system in Central Europe to which 
the Russians may object. Although we sincerely desire Russian 
participation and cooperation in addressing this common threat, Russia 
cannot and will not be able to divert the United States from the 
strategic goal of protecting Europe and the United States from Iranian 
ballistic missile attacks.
    General Cartwright. We will closely consult with Russia on our 
missile defense plans in Europe with a view toward enhancing their 
understanding of the approach and soliciting their inputs on potential 
areas of cooperation. At this point in time, it would be premature to 
engage in speculation on the Russian reaction or the prospective U.S. 
response to that reaction. We will seek to address on a case-by-case 
basis on any objections the Russians might raise.
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.

    48. Senator Sessions. Secretary Flournoy, General Cartwright, and 
General O'Reilly, how do you expect this decision to impact U.S.-
Russian relations?
    Ms. Flournoy. Although the decision to change our approach to 
missile defense was not made to placate the Russians, if removing an 
irritant to the relationship can result in better cooperation on the 
wide range of issues on which we would like to cooperate with Russia, 
then I would view this as an added benefit. We see missile defense as 
an opportunity for multilateral cooperation against a common threat.
    General Cartwright. I would anticipate that resolving this issue in 
a way that addresses both our countries' security concerns will provide 
tangible momentum to the broader relationship. Our presidents have 
committed to working together on security issues of mutual concern. 
Cooperation on missile defense in Europe is fully aligned with these 
principles.
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.

    49. Senator Sessions. Secretary Flournoy, General Cartwright, and 
General O'Reilly, do you agree that this decision creates in the minds 
of many that the United States has offered a concession to the 
Russians?
    Ms. Flournoy. As Secretary Gates wrote: ``Those who say we are 
scrapping missile defense in Europe are either misinformed or 
misinterpreting what we are doing.'' Although the Russian media may 
have put a positive spin on the decision initially, the Russian 
professional elite understand that the decision was taken after careful 
study and consideration, and that we decided upon the best system to 
meet our needs.
    General Cartwright. It would not be accurate to characterize this 
decision as a ``concession'' to the Russian Government. Our 
decisionmaking with respect to European deployments has been based on 
an extensive technical assessment and projection of the threat as it 
has evolved over the past several years. Detailed Russian security 
concerns were expressed to U.S. representatives during various 
consultations we had over the past several years. While these inputs 
certainly informed the process, they were by no means a determining 
factor in our internal decision-making.
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.
                                 ______
                                 
              Questions Submitted by Senator David Vitter
                           reaction in europe
    50. Senator Vitter. Secretary Flournoy, I have deep reservations 
about the administration's recent decision to cancel the planned BMD 
installations in Eastern Europe. This decision is particularly 
troubling in light of the continuing threat posed by the Iranian 
regime's development of ballistic missile systems. In what ways does 
the cancellation of the European BMD program increase the security of 
the United States or her allies from the threat posed by long-range 
ballistic missiles from Iran or other hostile regimes?
    Ms. Flournoy. The revised European-based BMD program does not 
``cancel'' the fielding of BMD capabilities in Europe. Rather, it 
revises the planned system to provide a significantly better and more 
adaptive defense of the United States, our deployed forces, and our 
friends and allies and partners.
    This phased approach starts by protecting those most at risk from 
current Iranian missile threats and grows in later phases to protect 
all of our European allies and U.S. forces, civilians and their 
families stationed in NATO countries, and the U.S. Homeland. As 
planned, the approach will leverage proven capabilities with SM-3 
interceptors and forward-based X-band radars, while still providing our 
military commanders the ability to adapt quickly to new and emerging 
threats. There are also greater opportunities for our allies and other 
partners to participate--sensors and interceptors of international 
allies and partners can be interoperable with this approach.
    The Phased Adaptive Approach significantly improves our ability to 
meet near-term requirements for our warfighters. Today our forward 
deployed forces face a range of potential missile threats, including 
increasing numbers and types of short- and medium-range ballistic 
missiles, ongoing Iranian development programs to field more capable 
missiles, and the ability of the enemy to conduct salvo launches in an 
attempt to overwhelm the system. This phased approach deliberately 
addresses the threats we see today, while also augmenting the defense 
of Europe and the U.S. Homeland against threats we may face in the 
future.

    51. Senator Vitter. Secretary Flournoy, are you concerned that this 
decision in any way increases the vulnerability of U.S. forces 
stationed in Europe or our allies in the region?
    Ms. Flournoy. On the contrary, the Phased Adaptive Approach will 
provide U.S. forces in Europe and our allies in the region protection 
sooner against the missile threats they face now. The new approach is 
also flexible in that it augments existing defenses of the U.S. 
Homeland should a long-range ballistic missile threat from a country 
like Iran suddenly surface, and creates another layer of long-range 
defenses that will be deployed in future phases.

    52. Senator Vitter. Secretary Flournoy, Russian leaders have 
indicated that they view the decision to cancel the European BMD 
program favorably. Do you believe that the United States and Russia 
share the same long-term objectives regarding deterrence of Iran's 
ballistic missile capabilities?
    Ms. Flournoy. It is important for the Russians and others to 
understand that we did not cancel the European BMD program. We 
redesigned it to be more immediately responsive to the projected threat 
and more adaptive to the future threat.
    The Russians share our concern over the possibility of a potential 
Iranian nuclear weapon capability, and they have made it clear that 
they prefer a diplomatic solution to this issue. However, President 
Medvedev stated in New York that sanctions may be inevitable in certain 
situations. We appreciate his comments and hope that the new positive 
atmosphere in our relations will be reflected in how we deal with the 
issue of Iran.

    53. Senator Vitter. Secretary Flournoy, do you believe that the 
cancellation of the European BMD program in any way affords Russia a 
strategic advantage in the region, particularly in regard to former 
Soviet bloc states including the Czech Republic and Poland?
    Ms. Flournoy. The President did not cancel European missile 
defense. The President opted for a Phased Adaptive Approach that takes 
advantage of new technology to addresses the short- to medium-range 
threats sooner than the GBIs and European Mid-course Radar (EMR) would 
have been emplaced in Poland and the Czech Republic. Poland has first 
right of refusal on hosting land-based SM-3s in a later phase. We are 
exploring potential roles for the Czech Republic in the new 
architecture. I believe this new architecture, which can better protect 
Europe from the current and future Iranian missile threats, improves 
stability and is a win-win for all of Europe including Russia.

    54. Senator Vitter. Secretary Flournoy, was the Strategic Arms 
Reduction Treaty follow-on negotiation ever mentioned in the context of 
this decision by you or anyone by the administration that you are aware 
of?
    Ms. Flournoy. We are moving to a Phased, Adaptive Approach because 
it will be more effective against current and emerging missile threats 
to Europe and the United States. From the beginning of the Strategic 
Arms Reduction Treaty Follow-on Treaty negotiations, we have made it 
clear to the Russians that the treaty should not include any 
limitations on missile defenses and that discussions on missile defense 
should be conducted through other bilateral contacts.

                            strategic shift
    55. Senator Vitter. General O'Reilly, I am frankly very concerned 
about this shift in our approach to missile defense, particularly the 
sudden reversal of our plans to cooperate with our Polish and Czech 
allies in establishing BMD installations. Broadly speaking, what is 
your opinion of the role of permanent, theater-based BMD installations 
in our overall missile defense strategy?
    General O'Reilly. There is a high degree of flexibility in where 
elements of the revised Phased, Adaptive Approach can be based--sea- 
and land-based at locations in northern and southern Europe. By mixing 
sea- and land-based missile defense, the war fighter will be able to 
leverage both ``theater-based BMD installations,'' such as the land-
based SM-3 sites, and sea-based assets, that are mobile and can be 
surged to the region as the threat develops, to provide a more powerful 
and responsive missile defense capability.

    56. Senator Vitter. General O'Reilly, you recently expressed 
support for a shift toward sea-based mobile BMD systems over the fixed 
land-based systems in Eastern Europe. In as much detail as possible, 
can you describe how the sea-based system represents an improvement 
over the land-based system?
    General O'Reilly. [Deleted.]

    57. Senator Vitter. General O'Reilly, are you at all concerned that 
the cancellation of the European BMD installations will serve the 
strategic interests of Russia at the expense of the long-term interests 
of the United States?
    General O'Reilly. As head of the MDA, I am responsible for 
technical aspects of the new architecture including the development, 
testing, and fielding of the architecture's components. I defer to my 
colleagues in Office of the Secretary of Defense and the Department of 
State who are in a better position to respond to questions that have 
policy or diplomatic implications.

    [Whereupon, at 12:22 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
